<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                         SONNY CALLAHAN, Alabama
 HAROLD ROGERS, Kentucky             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 TOM LATHAM, Iowa                    ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        JAMES E. CLYBURN, South Carolina
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 JO ANN EMERSON, Missouri
 JOHN T. DOOLITTLE, California      
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Robert Schmidt, Jeanne L. Wilson, and Kevin V. Cook, Staff Assistants
                                ________
                                 PART 6
                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management and Commercial Waste Management.........    1
 Nuclear Waste Technical Review Board.............................  161
 National Nuclear Security Administration and Other Defense 
Activities........................................................  175
 Defense Nuclear Facilities Safety Board..........................  530

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-612 O                   WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003

                              ----------                              

                                          Thursday, March 14, 2002.

                   UNITED STATES DEPARTMENT OF ENERGY

                               WITNESSES

JESSIE H. ROBERSON, ASSISTANT SECRETARY FOR ENVIRONMENTAL MANAGEMENT
LAKE H. BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT
    Mr. Callahan. Good morning, Madam Secretary, Mr. Barrett. 
Welcome to our Committee, and we are going to try to get 
through this as rapidly as we can. Traditionally, we have a 
very important vote that generally comes up--we spend hundreds 
of thousands of dollars voting on whether or not we have read 
the journal of the day before. So obviously all the Members 
have had time to read the journal now, so they are going to go 
approve it, which I always wondered why we are so adamant about 
that. But I guess it gives the leadership time to count heads.
    But welcome before our Committee, Secretary Roberson, and 
let me tell you, you have no doubt come from good stock. She is 
originally from Evergreen, Alabama, I think, which is about 10 
miles outside of my district, but close enough for me to 
represent them, anyway.
    Ms. Roberson. Thank you, sir.
    Mr. Callahan. We are happy to have you not only before our 
Committee, but in the position you are in because of your 
obvious success throughout your career with the Department of 
Energy and other areas. You are a proven factor. But I could 
have told them that before you even started that you would be 
successful. But we are happy to have you here. And, Mr. 
Barrett, although you are not from Alabama, you still have good 
stock. [Laughter.]
    Mr. Barrett. I will work on it, sir.
    Mr. Callahan. I think it is a little too late for that.
    Mr. Barrett. Never too late.
    Mr. Callahan. But, anyway, thank you both for coming, and 
the Subcommittee looks forward to hearing your testimony from 
both of you.
    Mr. Visclosky, do you have any opening statement?
    Mr. Visclosky. No, Mr. Chairman.
    Mr. Callahan. We will receive your entire statements for 
the record, and it will be printed for both of you. But at this 
time we will hear your request for fiscal year 2003.

             Oral Statement of Assistant Secretary Roberson

    Ms. Roberson. Mr. Chairman and members of the Subcommittee, 
I am here today to ask for your support for the Department's 
efforts to reform the Environmental Management program. I am 
pleased to report to you that the transformation of the 
Environmental Management program has begun. DOE has already 
taken the first steps to change our focus from risk management 
to risk reduction and elimination, to shift our focus from 
process to product, and to instill in this program the kind of 
urgency necessary to clean up and close the nuclear legacy of 
the Cold War.
    Since the release of the top-to-bottom review in January, 
environmental management has taken several steps to immediately 
implement its proposals for reforming and revitalizing this 
program. We have deployed special teams to most of our sites to 
work with DOE, our contractors, State and Federal regulators, 
and other stakeholders to develop and revise cleanup 
agreements.
    I am very pleased that just last week at the Hanford site 
in Washington, we were able to reach an agreement that will 
enable us to significantly accelerate our work and achieve more 
risk reduction sooner. I expect to achieve similar results at 
other sites over the next few months.
    DOE has taken the initial step to align our internal 
processes and management to enable a streamlined and more 
focused approach to cleanup and closure. I have made numerous 
changes in the EM management structure as part of this effort. 
I have deployed senior managers throughout the field, and EM 
has begun reviewing our contracts to ensure that they are 
effectively meeting our cleanup and closure needs.
    We have also begun reviews of existing systems, management 
systems and controls, and, where necessary, are developing new 
systems for managing our contracts to ensure effective 
Government oversight.
    The progress we have made so far is very significant. It 
would not be possible without the active support of the Members 
of this Committee.
    I appreciate your support and the confidence you have 
placed in me. As we move forward, I promise that I will not let 
you down.
    As far as we have come, the unfinished work ahead is great. 
Most of the hardest work and the toughest challenges are still 
before us. The EM budget request for Fiscal Year 2003 contains 
key initiatives and tools we need to help us continue the work 
of transforming this program.


        FISCAL YEAR 2003 ENVIRONMENTAL MANAGEMENT BUDGET REQUEST


    Our initial budget request is for $6.7 billion, about the 
same as appropriated last year. However, if we can achieve 
agreements for accelerated cleanup at other DOE sites, as like 
Hanford, around the complex, we believe that we will have 
greatly advanced this program for essentially the same amount 
of money.
    We are also prepared, with the support of, and in 
collaboration with this Committee, to amend our request 
consistent with the funding needs of those agreements that we 
expect to reach at other sites.
    Our Fiscal Year 2003 request has two components: a base 
budget and a new cleanup reform account. This new account is 
proposed specifically to fund projects and activities at sites 
that achieve agreements with their States to enable accelerated 
cleanup. I recognize that there have been many questions raised 
about this new cleanup reform account. How will it be 
allocated? What criteria will be used? And what happens if DOE 
cannot propose a specific site allocation until markup?

                        ACCELERATED CLEANUP FUND

    I want to make several broad points at the outset. First, 
this account is critical to the success of our efforts. To 
achieve our goals of accelerated risk reduction, we need new 
tools to jump-start this process. I believe our agreement at 
Hanford already demonstrates the efficacy of this process and 
its potential for even greater results complex-wide.
    Second, it is our intent to look for more effective and 
efficient ways of achieving cleanup and risk reduction in the 
base budget request as well. We will not be complacent in our 
activities under the base budget. Our first priority with these 
funds is to ensure that we maintain the safety and the security 
of our sites and continue our cleanup progress. But it is our 
intent to demonstrate visible and tangible results for the 
money that is being spent in this program.
    I believe in all areas of our operation we can and must 
make the structural and systematic changes that enable us to 
get results quicker.
    Third, it is not our intent to get out of compliance with 
any of our regulatory agreements. These agreements are living 
documents, with processes to enable improvement and revision to 
achieve our mutual goals. What we are trying to do throughout 
the complex is revise our cleanup plans to enable us to get 
more cleanup done sooner. Where we believe this may require 
revising our cleanup agreements with State and Federal 
regulators, we will discuss those changes with them.
    Fourth, DOE is not only looking at the States, but even 
more so at ourselves. We cannot achieve the results we want 
unless we change the way we do business. For example, we must 
manage our acquisition processes of core business to ensure 
that we are clear in our expectations for our contract and hold 
firm to those expectations to ensure the desired results are 
achieved. This will not be easy, but it is absolutely 
necessary. We cannot reform this program without reforming our 
business practices.
    And fifth, and finally, DOE is not seeking any new 
authority from Congress at this time to achieve our accelerated 
cleanup objectives. We believe we have adequate authority 
within the current statutory framework. It is our intent to put 
in place performance agreements at all of our sites in the next 
few months. We will continue to work with the relevant 
congressional committees to achieve this in a way that 
preserves congressional oversight and authority. If in the 
future we believe we need new authority from Congress to carry 
out these reforms, we will inform Congress at that time.
    Members of this panel have appropriately demanded more of 
DOE: more accountability, fiscal responsibility, and tangible 
results. We are strongly aligned with your efforts to improve 
our efforts. The Fiscal Year 2003 budget request is based on a 
simple premise: that DOE, the Congress, the States, and the 
communities that host DOE sites all want accelerated risk 
reduction and cleanup. This budget request will put in place 
the first set of tools and instruments we need to achieve this 
mutual goal.
    I do not come before you today claiming that we have all 
the answers. In many respects, this is still a work in 
progress. And to get here, we have benefited greatly from the 
work of those who have been here before us. Nonetheless, we do 
feel a sense of urgency that requires that we forge ahead in 
spite of those uncertainties. I am confident that we can, 
working together, be successful.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Callahan. Thank you, Madam Secretary. You realize that 
if you totally succeed in your mission, you will be out of a 
job. [Laughter.]
    Ms. Roberson. It would not be the first time I have had 
this challenge in front of me.
    Mr. Callahan. Thank you very much.
    Mr. Barrett, I know you have been on the hot seat before. 
This is not exactly the hot seat, but I understand Ms. Chu is 
on the verge of being confirmed, if not already confirmed.
    Mr. Barrett. She is, sir. She will be sworn in very 
shortly.
    Mr. Callahan. Oh, good. Well, we welcome you and we welcome 
your statement.

               Oral Statement of Acting Director Barrett

    Mr. Barrett. Thank you very much, Mr. Chairman, Members of 
the Committee. I appreciate the opportunity to present our 
Fiscal Year 2003 budget request and our plans to advance this 
program.
    This is my sixth and final time to present this program's 
budget before this Committee, and I would like to thank the 
Committee for its continued support over the many years. The 
recent accomplishments we have made this year would not have 
been possible without this Committee's continuous support.
    Fiscal Year 2002 has been the most significant year ever 
for this program. Despite the unfortunate significant budget 
reduction in the final Fiscal Year 2002 budget, we have been 
able to exceed the request of this Committee, as stated in your 
Fiscal Year 2002 Appropriations Conference report. The 
Secretary and the President have recommended the Yucca Mountain 
site to be the Nation's high-level radioactive waste geologic 
repository to the Congress on February 15th, 2002, before your 
requested date in the conference report.
    In his recommendation, the President also urged the 
Congress to undertake any necessary legislative action on his 
recommendation in an expedited and bipartisan fashion. For 
Secretary Abraham to be able to recommend the site to the 
President, he determined that sound science supported that the 
Yucca Mountain site is scientifically and technically suitable 
for development as a repository. The Secretary and the 
President also considered compelling national interests such as 
national and energy security in their final decision.

                    FISCAL YEAR 2002 ACCOMPLISHMENTS

    The program completed several key objectives in Fiscal Year 
2002 to support the Secretary and the Presidential decisions 
this last February. We finalized the Department's repository 
siting guidelines. We obtained the Nuclear Regulatory 
Commission's sufficiency letter for the site recommendation. We 
completed the necessary scientific work to support a 
secretarial decision to recommend the site. We completed the 
final environmental impact statement for Yucca Mountain 
repository. And we finalized the site recommendation documents 
for the Secretary in his submittal to the President.
    A year with such progress still has further challenges 
ahead. As the President emphasized, the Congress must act in 
order to complete the site approval process if the State of 
Nevada follows through with its anticipated disapproval. If 
Congress does not pass a repository siting resolution, the site 
will stand disapproved and the program will have to be 
terminated. The disposition of the Nation's waste will still be 
an issue that the Congress will have to resolve.
    We face other challenges through litigation over the delay 
in meeting our contractual obligation to the nuclear utility 
companies to begin accepting their spent fuel in 1998. There is 
also litigation with the State of Nevada over water permits and 
other issues. For example, effective April 9th of this year, 
our water permits by the State of Nevada will expire. Although 
we have requested extensions of these permits in a timely 
manner, we are still embroiled in very complex litigation.

                   PROPOSED WORK FOR FISCAL YEAR 2003

    If the Congress designates the site, we will proceed with 
our plans in Fiscal Year 2003. We will work in Fiscal Year 2003 
to submit a license application to the Nuclear Regulatory 
Commission in 2004 and to develop a transportation system 
necessary to remove waste from waste sites in 2010.
    For the Yucca Mountain Business Center, we are requesting 
$424.9 million to transition from site characterization into 
license application development. We will conduct engineering 
and design work to support the license application. Another 
enhanced iteration of the total system performance assessment 
will be completed in Fiscal Year 2003 to support that license 
application. This iteration will increase the understanding of 
how emplaced waste would interact with the natural and 
engineering barriers since the assessment was conducted for the 
site recommendation decision.
    In the waste acceptance and transportation business area, 
the budget request is $17 million. We will conduct activities 
that are necessary to support the removal and transportation of 
spent fuel and high-level waste from their sites to the Yucca 
Mountain site. These logistical and institutional planning and 
development activities for a national transportation system 
were deferred due to historical budget reductions, thereby 
allowing available resources to focus on a successful site 
recommendation decision. We must now resume preparations 
necessary for a national transportation system if we are to 
move spent nuclear fuel and high-level waste in 2010.
    In conclusion, I am proud to say we have conducted a world-
class investigative science program to determine whether the 
Yucca Mountain site is suitable for further development in the 
next licensing phase. We overcame difficult challenges and made 
significant progress. We are developing repository design and 
operational concepts that are fully integrated into the local 
geological setting that would enable future generations to make 
decisions about the repository, providing them with the 
flexibility to determine the length of the monitoring period, 
when or how to close the repository in a final setting, and if 
the retrieval of the emplaced waste would be appropriate. This 
built-in flexibility will allow judgments to be made by 
successive generations based on societal standards that they 
find satisfactory to themselves.
    We are fully committed to building a safer, more secure 
path to the future, and to ensure the continued strength of 
this Nation and its resources for both present and future 
generations.
    I would be pleased to address any questions that the 
Committee may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      ACCELERATED CLEANUP FUNDING

    Mr. Callahan. Thank you, Mr. Barrett.
    Secretary Roberson, you have mentioned in your opening 
statement, as has the Secretary, and as almost everyone that 
has been before this Committee has mentioned, the $800 million 
request for the accelerated cleanup and the success of the 
Hanford site. And we applaud you for that, for your 
involvement, but what happens after that? And if you are able 
to reach agreements, if you are spending $433 million on the 
tentative Hanford agreement, and the other areas begin giving 
indications that they, too, are willing to have some 
accelerated methodologies adopted to accomplish the missions, 
where are you going to get that money?
    Ms. Roberson. Mr. Chairman, we are actively working at each 
of our sites with our regulators and with our contractors to 
detail specific accelerated initiatives for those sites. And so 
we have a fairly good idea of the work to be done.
    If all of our sites do indeed reach agreements on 
accelerated plans, the Administration is prepared, to work with 
this Committee to request additional funds, up to $300 million, 
in the form of a supplemental request.
    Mr. Callahan. That is $300 million in addition to the $800 
million?
    Ms. Roberson. Yes, sir. We believe that would be adequate 
to address the needs of those sites to accelerate cleanup.
    Mr. Callahan. All of the needs?
    Ms. Roberson. Yes.
    Mr. Callahan. Thank you.
    Mr. Visclosky?

                   WASTE ACCEPTANCE AT YUCCA MOUNTAIN

    Mr. Visclosky. Thank you, Mr. Chairman.
    A couple of questions on Yucca Mountain. It is my 
impression that once operational, we will be able to have 
significant storage at Yucca and remove some of our aboveground 
storage. There was a recent press article that suggested 
otherwise, that said that even if approved and built, it would 
not be ready to receive waste for decades, and that much of the 
spent fuel would still be above ground at reactor sites across 
America for the next 50 years, and that potentially some fuel 
would remain aboveground for almost a hundred years. This is a 
press report, and I am just wondering what your reaction to it 
is.
    Mr. Barrett. Well, sir, we believe that if the actions are 
taken to designate the site this year and it is supported in 
the budget point of view, we can start to move fuel in the year 
2010. That is 8 years from now, so I would not characterize it 
as decades into the future.
    The proposal that we have for the design would allow us to 
accelerate the movement so that in the first 5 years we build 
up to moving approximately 3,000 tons of fuel per year.
    In the United States today, there is about 46,000 metric 
tons of commercial fuel in place at the reactor sites. It is 
being produced at a rate of around 2,000 tons per year. I 
believe that this program can make a substantial difference in 
the situation in this Nation by moving fuel, you know, starting 
in 2010, and it will make a difference.
    If you have continued operating nuclear power plants, there 
will always be some amount of spent fuel, you know, on the 
surface at the plant. But we certainly can make a big 
difference in the situation in the United States. Especially, 
sir, there are ten different reactor sites where they have 
discontinued electricity generation, and the fuel is basically 
stranded at those sites. And as Ms. Roberson mentioned about 
reducing the risk and eliminating the risk, that material can 
be moved technically to a much better place than where it is 
sitting on our lakes and rivers.
    Mr. Visclosky. Mr. Barrett, you indicated that we are still 
producing about 2,000 tons of fuel----
    Mr. Barrett. Tons per year.
    Mr. Visclosky [continuing]. And you would be moving 
initially about 3,000. I assume--or shouldn't I assume--that 
that 3,000 figure would go up once a system of transportation 
and disposition at the site would be approved. Because 
otherwise, doing the math here, the article is not necessarily 
incorrect.
    Mr. Barrett. What we would do is ramp up. We wouldn't start 
the first year at 3,000. Our design planning is 400 tons the 
first year, 600 tons the second, 1,200 tons the third, 2,000 
the fourth, and then 3,000 at a steady state. That can be 
varied. But you will start to catch up and make a meaningful 
difference in the United States if we start the program. But it 
will take time to catch up, and there will still be fuel at 
sites as long as reactors are operating. But we will start to 
catch up on the backlog where we will be receiving 1,000 tons 
per year.
    Now, if there is some national reason to make it a higher 
rate, we can technically run at say three--we have studied up 
to over 3,000 tons per year. So it can be done, and it can be 
modulated based on what the national needs would be at that 
time.
    Mr. Visclosky. If we don't move anything for 8 more years, 
that would be 16,000 more, and so that gives me 62,000. And 
then for the first couple years, we are not up to 2,000, so 
that 62,000 figure would grow. And then the differential would 
only be 1,000 per year, so we wouldn't catch up for almost a 
century.
    Mr. Barrett. Well, it depends on whether--you know, catch 
up is--you will never get rid of all the fuel. It will take a 
long time to reach a steady-state situation, but the society 
can concentrate on where the needs are the greatest once the 
system starts. But the system must start to make any progress 
at all.
    Mr. Visclosky. I don't disagree with that. I guess I am 
somewhat taken aback that this is such a long-term proposal. My 
sense is that the differential would be more than 1,000.

                           SPENT FUEL STORAGE

    Mr. Barrett. We have done economic studies--and we can 
provide them to the committee--several years ago where we 
looked at various receipt rates, up to 3,000 tons per year. And 
what starts to happen is the system would work very hard for 10 
years or so, and then you would have excess capacity after you 
worked off the backlog, and if the fuel was in the utility 
pools and if there was no new reasons that it needed to be 
moved, that seemed to be a proper balance between economics and 
need. We need to look and see what that is. But there is 
flexibility in our designs to operate at 3,000 or 4,000 or even 
5,000 tons a year. The economics of it starts to become 
something we will need to look at when we reach that time.
    Mr. Visclosky. So the assumption really here is that over a 
period of time you would gradually decrease the amount of spent 
fuel above ground. This would not necessarily be a program 
where a quarter century from now it would essentially, except 
for continued spent fuel being produced, be removed from above 
ground storage.
    Mr. Barrett. We would like to reduce the amount of the 
above ground materials.
    Mr. Visclosky. Right. Okay. I represent a district that is 
on the southern tip of Lake Michigan, and unless you are in an 
airplane or a boat, you have to go through my congressional 
district to get around the Great Lakes. And it would be my 
sense that those who do not want to see Yucca Mountain approved 
have certainly generated a lot of publicity about all of this 
fuel being sent through the 1st Congressional District of 
Indiana. I am sure I am not unique in Congress.
    Would you care to address the Federal Government's safety 
record as far as transferring nuclear waste? Because, clearly, 
that will be a problem that will continue to be raised in the 
Congress before we approve it.
    Mr. Barrett. I am proud to say that the safety record in 
the United States of America and also worldwide is an exemplary 
record. We have been transporting, just in the United States, 
for the last 40-some years almost 3,000 shipments, and it has 
been done safely and properly. Today, in Western Europe, 
approximately the same amount of fuel is being moved per year 
as we propose to do at Yucca Mountain, and that is being done 
safely and properly.
    Also, in the national defense, the national security area, 
we have logged over 100 million miles of safe transportation in 
that area.
    So the record is exemplary, but we don't rest there. We 
want to take it and ensure all the citizens that it will be 
done very safely and very well. So our record is good, but we 
are not resting solely on our record.
    Mr. Visclosky. The final observation I would make, then a 
question, is that I really think we do face a two-part process 
here in the House and Senate, and you alluded to that in your 
earlier comments, that it is not simply enough to have final 
approval, but then you need the budgetary figures to match so 
that we can move along here. And so I think people both in the 
administration as well as up here who do support the 
continuation of the program have to recognize that it is not a 
one-step process this year, that the dollar figures are as 
important as that approval and make sure we keep moving.
    Mr. Barrett. Yes, sir.
    Mr. Visclosky. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Wamp?

                COMPLEX-WIDE ACCELERATED CLEANUP FUNDING

    Mr. Wamp. Thank you, Mr. Chairman.
    Secretary Roberson, welcome. Director Barrett, welcome. 
Good morning.
    Secretary Roberson, a lot of people were stunned at the 
$433 million figure for Hanford right out of the box on the 
$800 million program, the new program. But those of us that 
have studied the risks and the challenges in the nuclear legacy 
understand that Hanford just dwarfs the rest of the priorities 
around the country. So it wasn't a surprise to some.
    But that is over half of the money, and I just want you to 
say for the record today what your thoughts are on sites like 
Oak Ridge and Savannah River and Idaho. And is there enough 
money left, if they all participate in the program, to meet the 
expedited cleanup needs if everyone is in? Or will we break the 
$800 million cap? And what discussions have you had with OMB 
about potentially, I understand, up to $300 million extra if we 
have full participation in the new program this year?
    Ms. Roberson. Congressman Wamp, our discussions with OMB 
have been that if we have agreements with all of the sites--and 
you are very familiar with the progress of the agreement at Oak 
Ridge--that we would support, working with the Committee, 
supplementing the $800 million, with up to $300 million. And 
based on the proposed approaches at each site to accelerate the 
cleanup, we believe that would be adequate funding.

                 SITE RESPONSES TO ACCELERATED CLEANUP

    Mr. Wamp. Are you getting a response at all of these sites 
that they want to participate? How is it going? I know about 
Oak Ridge because it is a site I represent. But what about the 
other sites?
    Ms. Roberson. We are receiving truly a very open and 
objective response at every one of our sites. We have had open 
public workshops to detail out specific proposed approaches to 
accelerate cleanup. We are being met expectedly with cautious 
optimism. I am pleased to say that we have been met with an 
objective opening to make our case, and that is what we are 
doing.

                  ACCELERATED CLEANUP PLANNING PROCESS

    Mr. Wamp. Typically, do you expect a letter of intent 
process like we saw at Hanford where they would get their feet 
wet with a letter of intent and then begin to work with you on 
trying to formulate a plan that could be acceptable?
    Ms. Roberson. Yes, sir. We would expect to go through the 
same process, with the first part of that process being a 
letter of intent. But let me clarify. There are significant 
details on specific activities and timelines that support the 
letter of intent. The first document would be a letter of 
intent based upon those details. There would be three other 
documents: a letter of commitment from our contractors as to 
their commitment to also work with the Department and our 
regulators to achieve those activities; a letter of commitment 
from the Department to address its systematic issues to ensure 
that we are focused on achieving that work; and a performance 
plan which details out the activities on a timeline with an 
associated funding plan.

                      STATUTORY LANGUAGE REQUIRED

    Mr. Wamp. I can see that our professional staff here and 
you and your staff and the Members are going to get to know 
each other better this year than ever before, because in order 
to make all that work on a schedule that would accommodate the 
2003 appropriations process, that is an awful lot of work to be 
done quickly. And we are going to move our bills earlier this 
year. And so at some point before we finalize our conference 
work, there is going to have to be some statutory language, I 
think, in these bills.
    I would like for you to comment on that. When the Secretary 
was here, I said it, and I want to say it again just to make 
sure we continue to air this out. I hope and believe that the 
Administration, the Department of Energy, certainly this Member 
of this Subcommittee believes this should not be politically 
driven, that Senators who want the money to go to their States 
should not try to capture it through this process, that it 
should be based on the merits of the proposals, the plans that 
are written. And if there are statutory language requirements, 
everyone should be treated fairly based on what the needs are 
at the site and what the work is in putting together this plan, 
so that at the end of the day, you know, political power 
doesn't decide where this $800 million goes. And I believe that 
is your intention as well.
    Ms. Roberson. Yes, sir, that is our intention, and I would 
like to say I do appreciate the support we have received from 
the committee to that goal. We have spent quite a bit of time 
with committee staff and are ready and willing and 
participating in the development of any language the committee 
deems appropriate to ensure that we achieve that goal.

                    FUTURE DOE COMPLEX SHIFTS TO EM

    Mr. Wamp. Two other things. The top-to-bottom review, does 
it analyze and can you comment on how much of the DOE complex 
will be shifted over to EM in the near future? It seems to me 
we have got a multipurpose site, as you well know. Actually, 
you will be there this afternoon. From Defense Programs over to 
Environmental Management, we have got a lot of buildings that, 
as we modernize the facilities both at the lab and at the 
weapons plant, are shifting over to EM. What about the 
additional EM work that you see on the horizon? Does the top-
to-bottom review take all that into consideration as well?
    Ms. Roberson. In the top-to-bottom review, especially part 
of the site visits, we did try to assess that issue. But the 
real focus of the top-to-bottom review is the accelerated 
achievement of the current scope in the program, and also to 
establish the system and management tools that would allow us 
to apply the same urgency to other facilities that may transfer 
from other programs.

                       EMPLOYEE AND PUBLIC SAFETY

    Mr. Wamp. I think the Subcommittee needs to be aware as we 
move from year to year that, as we see a new national security 
priority for the Department of Energy and we modernize the 
facilities to prepare our weapons stockpile and stewardship for 
whatever future risks we have, you are going to see more and 
more buildings, though, shifted over to the environmental 
cleanup, and so the current burden that we are looking at is 
only going to get bigger, and the quicker we get into the 
cleanup, which is this expedited plan. So I certainly, too, 
commend the Administration for rolling out a doable 
presentation, but still the toughest nut to crack, so to speak, 
at the Department of Energy, is the cleanup.
    Then, finally, I will call this the new Jessie culture 
because out there at the sites, people are more concerned about 
safety than we have been in the past. And you inherited a 
culture that has nothing to do with party. It is just the way 
that it had gotten deteriorated over time.
    How is it going with your attempts? And I know they are 
aggressive because I see you everywhere trying to really 
instill a new Safety First kind of mind-set throughout the 
environmental inventory across America.
    Ms. Roberson. I think it is going quite well. I would say 
the one benefit that I have, since I was a field manager for 
the Department in the field, is that I am very familiar with 
our systems, our approaches, the work to be done at all of our 
sites, and, quite frankly, I understand how it has to be 
conducted to really focus on safety first. I think we are 
making tremendous progress, and I attribute that to our folks 
in the field and our contractors and to the Members of Congress 
for continuing to press us to make sure that we recognize that 
our first obligation is the safety of our workers and the 
public.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Callahan. Let me forewarn both of you that what you are 
talking about in that additional funding is violative of the 
wishes of OMB, and you are on a slippery slope or thin ice if 
you are starting to indicate that you are going to ask for more 
money than what OMB has requested. So we want to be careful. We 
don't want to get the Secretary in any trouble or we don't want 
to get you in any trouble when you start disagreeing with the--
--
    Mr. Wamp. OMB.
    Mr. Callahan [continuing]. Directions of OMB. [Laughter.]
    So be very, very careful about that.
    Ms. Allard?

                           MOAB CLEANUP PLAN

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    As you know, Southern Californians depend on the Colorado 
River for all or part of their drinking water supply, and they 
are deeply concerned about the 11-story pile of radioactive 
uranium mill tailings just 650 feet from the Colorado River in 
Moab, Utah. This mountain of waste weighs 10.5 million tons, 
covers 130 acres, and leaks 28,000 gallons of toxic chemicals 
into the ground each day. This obviously is a very dangerous 
security issue which needs to be addressed as soon as possible.
    Now, it is my understanding that there is consensus within 
the scientific community that capping or containment options 
will not solve the problem and that those options have been 
eliminated by your Department.
    My question is: Is that true? And if it is, what are the 
reasons for continuing to explore capping or containment?
    Ms. Roberson. Congresswoman, we have not eliminated the 
option of capping, nor the option of removal. We are currently 
taking actions to stabilize and contain the material, gathering 
additional data on groundwater contamination, and following the 
wish of Congress and allowing the National Academy of Sciences 
to complete their assessment of our data.
    We expect that they will complete their assessment of our 
report in June of this year, and at that point we would make a 
decision as to what actions to take.
    Ms. Roybal-Allard. Okay. But is it true that at this point 
the scientific community has determined that capping and 
containment are not viable options in terms of solving this 
problem?
    Ms. Roberson. That is not my understanding right now. My 
understanding is there is a belief that some removal will be 
required because some tailings sit in wetlands. But I am not 
aware of the scientific community drawing a complete conclusion 
on that.

                       NAS STUDY OF MOAB CLEANUP

    Ms. Roybal-Allard. DOE has estimated that a solution to the 
tailings pile at Moab will cost from $140 million to $380 
million and take about 10 years to implement. It is my 
understanding that the National Academy of Sciences study is 
currently underway. When will that study be completed? And is 
the Department's plan and approximate timetable for choosing 
and implementing one of these recommended options, is that in 
place?
    Ms. Roberson. Yes, ma'am, it is. My understanding is the 
National Academy of Sciences has communicated that they expect 
to complete its endeavor in June of this year, and I believe by 
September we are expecting to render a decision.

                          MOAB MONITORING COST

    Ms. Roybal-Allard. And what is the estimated annual cost 
for DOE to monitor the Moab site?
    Ms. Roberson. I believe it is just over $2 million, but I 
would like to actually provide that for the record.
    [The information follows:]

               Estimated Annual Cost To Monitor MOAB Site

    The Department estimates that the cost for maintaining the 
site in an environmentally acceptable manner is approximately 
$600,000 to $700,000 per year. This includes air monitoring, 
maintenance activities, and maintaining the tailings pile 
dewatering system.

            ESTIMATED COST TO MITIGATE ENVIRONMENTAL DAMAGES

    Ms. Roybal-Allard. Okay. And what is the estimated annual 
cost for DOE to correct damages caused by the existing leaching 
or to mitigate other environmental damages that are resulting?
    Ms. Roberson. I would ask to provide that for the record.
    [The information follows:]

Annual Cost To Correct Damages Caused by Leachate, or To Mitigate Other 
                   Environmental Damages at MOAB Site

    In the DOE's draft Preliminary Plan for Remediation, a 
ground water protection strategy is presented that is estimated 
to cost an average of $1.5 million per year for thirty-five 
years, followed by long-term monitoring. The ground water 
strategy includes a slurry wall, ground water extraction 
system, and distillation process.
    The Department has not determined a final remedy for ground 
water or surface remediation at this time. We are awaiting 
completion of the National Academy of Sciences study so that we 
can take its conclusions and recommendations into account. We 
are also reviewing existing models and data, and gathering new 
information so that the final remediation plan will contain 
more quantitative scientific information and more refined cost 
estimates.

    Ms. Roybal-Allard. All right.
    Ms. Roberson. Thank you.

                CATASTROPHIC INCIDENT LIABILITY AT MOAB

    Ms. Roybal-Allard. Do you have any idea as to what the cost 
of cleanup or liability would be in the event that there was a 
catastrophic incident in which a significant portion of the 
pile were to reach the Colorado River?
    Ms. Roberson. I am sorry, I don't have an estimate. It is 
our intent not to allow that to happen, and that is the path 
that we are proceeding on.
    Ms. Roybal-Allard. Hopefully we will be able to deal with 
it before something does happen.
    Ms. Roberson. Exactly.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Chairman, I don't know if we are going to go another 
round or not, so I just want to mention that I have questions 
that Congresswoman Shelley Berkley has asked that we submit for 
the record dealing with Yucca Mountain and the DOE refusal to 
update their baseline, the 293 unresolved questions that were 
reported by GAO, and also some questions regarding the study of 
transportation routes for the Yucca Mountain project. I would 
like to submit these for the record for Ms. Berkley.
    Mr. Callahan. Thank you. All Members will be permitted an 
amount of time, whatever time you need, within 3 or 4 days, to 
submit any questions on behalf of yourself or any other Member. 
You submit them in your own name, but we will submit questions, 
Madam Secretary and Mr. Barrett, to you, and quite a lengthy 
number of questions to you, and we would ask that you respond 
to all of these questions in a timely fashion because we do 
intend to begin the process of marking up a bill in the next 6 
or 7 weeks. And that is why it is also crucial that we 
determine what your real needs are going to be for everything 
in a rather timely fashion so we can do it correctly without 
having to go through any amendment process or without trying to 
take something away from someone that originally was in a 
markup or finding new moneys and possibly jeopardizing Social 
Security. I know you wouldn't want to do that.
    Ms. Roberson. No, sir.
    Mr. Callahan. Mr. Wamp, do you have further questions?

                              WIPP STATUS

    Mr. Wamp. Thank you, Mr. Chairman.
    Secretary Roberson, if you could give us an update on where 
we are at WIPP and what missions are now carried out there, 
just a status report?
    Ms. Roberson. Well, the primary mission at the Waste 
Isolation Pilot Plant is the disposal of transuranic waste. 
This year we increased the number of shipments. Up until, I 
would say, about the last month, we were able to fund about 17 
shipments of transuranic waste into WIPP per week, and we have 
increased the number of shipments into WIPP to 25. And as you 
can tell from our budget, we have maintained that increase, and 
we are looking for opportunities of efficiency. We are working 
with the State regulatory agency on the proposed modifications 
to the permit to ensure that we maintain a safe but very, very 
efficient operation.

                         EM PROGRAM PRIORITIES

    Mr. Wamp. Without picking winners and losers, what is your 
highest priority request that you are making of this 
Subcommittee this year. At different times, I know the Hanford 
tanks were the most critical environmental issue. What is it 
today?
    Ms. Roberson. I would say that there are four, not one. 
There are four number one priorities. Clearly, stabilization of 
high-level waste is a number one priority--Placing spent fuel 
into dry storage, removal from wet pools into dry storage. 
Consolidation of nuclear material is probably the number one 
from a work activity base. This Committee can see from this 
year's budget, from the Fiscal Year 2003 budget request as well 
as our activities in Fiscal Year 2002, that as a result of 9/11 
we have increased the cost of our security efforts to ensure a 
higher degree of confidence. And, therefore, because the costs 
have gone up, it really has heightened our urgency in 
consolidating those materials.
    The fourth highest priority would be that I would ask this 
Committee to give us the opportunity to demonstrate how this 
approach can truly advance the environmental cleanup work in 
this complex.

                         PIT 9 CONFLICT STATUS

    Mr. Wamp. Can you tell us what the status of the Pit 9 
conflict is? And is it close to being resolved?
    Ms. Roberson. I believe we are clearly making progress. The 
Secretary has deployed a team; in fact, I think they are 
meeting today. We have worked out a proposed approach forward. 
I hesitate to say how close we are because these are 
negotiations, but it is clear that all parties are interested 
in resolving and moving forward. I think that we can in the 
near term complete that dispute process.
    Mr. Wamp. Let me just say in closing I appreciate your 
work-boot approach to your job. I really do. And I think others 
that represent site where you have actually been out literally 
in work boots and been with the people and understand the 
problems at the local level is refreshing and unique, and you 
are serving us very well. Thank you.
    Ms. Roberson. Thank you, sir.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Callahan. Madam Secretary, we don't need to go into 
great depth in discussion today on this subject matter, but on 
the tank cleanup and the private sector involvement in that, 
maybe sometime today, any time after 1:30 today, that you and I 
could privately talk about this, I would appreciate it, at your 
convenience. Whatever time is convenient with you would be 
convenient with me. But I think we can do it on the phone.
    Ms. Allard, do you have further questions?
    Ms. Roybal-Allard. If we have the time, I would like to 
have some of the questions that I have----
    Mr. Callahan. We have the time, limited time, but can't 
they be submitted in your name? If you need the answer today, 
you can do it.
    Ms. Roybal-Allard. I can do that.

                  YUCCA MOUNTAIN TRANSPORTATION PLANS

    Mr. Callahan. Okay.
    On Yucca Mountain, Mr. Barrett, transportation is beginning 
to reach the level of some expedited decisions because we are 
facing a huge vote here. That is going to be one of the issues. 
We understand that you may be negotiating a contract with the 
State of Nevada to help you determine the best routes for any 
transportation needs that Yucca Mountain might have. And I 
wonder if you really think that Nevada is going to go into--how 
much money are we talking about for Nevada to decide to give 
you a definite answer on the best route of transportation?
    Mr. Barrett. Sir, I think there is a misunderstanding. We 
have no contract with the State of Nevada. We have no 
negotiation with the State of Nevada regarding transportation.
    What we have said is that if this site is designated under 
law--and it is not yet designated--we would offer to work with 
the Nevadans in totality to determine what is the best approach 
for both the Federal Government and the Nevadans to bring 
basically heavy loads to the Yucca Mountain site. There are no 
negotiations at this time. But we have, in our budget request, 
provided for that if the site is designated to go forward. 
There are no negotiations at this time with the State of 
Nevada.
    Mr. Callahan. So you haven't done it yet, but you expect 
full cooperation from Nevada when the Congress agrees and 
refuses to----
    Mr. Barrett. I don't know what to expect, sir.
    Mr. Callahan. Is there any possible way that the 
transportation decision--I know you wouldn't enter into a 
contract with them and giving them 2 years to study it and at 
the end of 2 years they come up and tell you they have found 
nothing as just another way to delay the process. But are you 
in the meantime working towards establishing some 
transportation ideas or some safeguard for the people primarily 
of the City of Las Vegas?
    Mr. Barrett. Yes, sir. In the final environmental impact 
statement we analyzed ten different methods of getting material 
from the mainline railroad to the Yucca Mountain site. There 
are five heavy hauls and five railroad corridors--not a route, 
but corridors--which represent pretty much all the options that 
reasonably could be done in Nevada to leave the flexibility for 
the United States of America. I say it that way because both 
the Federal Government and the Nevadans need to try to choose 
the best arrangement that we can both have.
    I think it is premature at this time to try to specify one 
or another. We do have in the budget request to do further 
studies and to approach it in the classical Federal way, if the 
Nevadans choose to do it that way, or if we could have some 
reconciliation or some arrangement that we would like to see. 
But it is premature for any of that at this time, but we do 
have moneys in there to do this the more classical way.

                     INTERIM STORAGE OF SPENT FUEL

    Mr. Callahan. The interim storage factor, we are now 
concentrating in most every hearing and every one of our 
appropriation bills on homeland security. Are there any plans 
to create a central temporary storage facility rather than to 
have these items stored all over the country? From a national 
security point of view, wouldn't it be better to get them into 
one central location where we could temporarily store them and 
not have the security measures spread all over the country?
    Mr. Barrett. Yes, sir. A very important part of the program 
is to do that. Now, we are authorized under the law, the 
Nuclear Waste Policy Act, to build a repository, not an interim 
storage facility and it must be sited and licensed. So we are 
proceeding ahead with the geologic repository, which can 
basically be done almost as quickly as the other. But that is 
what we are authorized to do.
    So, yes, that was a very important matter in the 
Secretary's mind and also in the President's mind in making 
their decisions of a compelling national interest as they both 
articulated in their correspondence to the Congress. So, yes, 
we believe that is an important factor, but as far as a stand-
alone interim storage under Nuclear Regulatory Commission 
rules, we are not proceeding with that as a Federal endeavor at 
this point.
    Mr. Callahan. Madam Secretary, Mr. Barrett, thank you so 
much for your testimony today. This is, I think, the last of 
our Subcommittee hearings before we begin the markup process. 
So we look forward to working with both of you to develop the 
necessary resources you need and look forward to your continued 
success, and to you, Mr. Barrett, success in whatever you do in 
the future.
    Ms. Roberson. Thank you, Mr. Chairman.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Callahan. Thank you.
    [Questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Thursday, March 7, 2002.

     DEPARTMENT OF ENERGY NATIONAL NUCLEAR SECURITY ADMINISTRATION

                               WITNESSES

GENERAL JOHN A. GORDON, UNDER SECRETARY OF ENERGY AND ADMINISTRATOR FOR 
    NATIONAL SECURITY, NATIONAL NUCLEAR SECURITY ADMINISTRATION, U.S. 
    DEPARTMENT OF ENERGY
ANTHONY R. LANE, ASSOCIATE ADMINISTRATOR FOR MANAGEMENT AND 
    ADMINISTRATION
DR. EVERET H. BECKNER, DEPUTY ADMINISTRATOR, DEFENSE PROGRAMS
AMBASSADOR LINTON F. BROOKS, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
    NONPROLIFERATION
THOMAS BECKETT, NAVAL REACTORS

                           Opening Statement

    Mr. Callahan. Good morning, General. Thank you for your 
appearance before our committee. Mr. Visclosky has called and 
said he is en route, but we will go ahead.
    Before we get started, I would say that your testimony in 
its entirety will be accepted for the record, as will any other 
members who wish to insert anything into the record.
    Can you, General Gordon, verify that everyone in the room 
has an appropriate security clearance?
    General Gordon. Yes, I can, Mr. Chairman. Yes.
    Mr. Callahan. For the members of the subcommittee, I would 
like to remind you that some of the information discussed today 
will be classified and should not be discussed outside this 
room.
    One last reminder, I would ask that all cell phones, two-
way pagers and unauthorized recording devices be turned off 
during the hearing.
    General, welcome to the committee, your second appearance 
before this body. We notice, in analyzing the budget as 
submitted by the President, he treats your jurisdiction of 
responsibility very favorably, but I am sure that there are 
some questions that many of the members of this panel have with 
respect to the direction you are taking. Once again, thank you 
for your appearance, and we will hear your opening statement 
now.

                    Oral Statement of General Gordon

    General Gordon. Thank you, Mr. Chairman. We have brought 
along enough folks, I think, pretty much the senior leadership 
at NNSA, that we can get into just about any direction you or 
any of the other members would like to go.
    Before I begin, I would like to publicly note your decision 
not to run again and express the appreciation of the literally 
37,000 or so people that make up NNSA in one way or another for 
your support, your contribution, your patriotism, your 
dedication for so many years of service. I know we will be 
working with you for a good number of months to come, but I am 
not sure I will have the opportunity to say that, even in a 
semi-public setting, so I would like to do that this morning.
    Mr. Callahan. Thank you very much.
    General Gordon. Since the Secretary appeared just in this 
room yesterday, I thought maybe that rather than sort of 
stepping down the budget items, because he actually did that 
yesterday for the subcommittee, I might spend a few moments 
giving you more of a report on where we are in NNSA as an 
organization, where we are going with that, and then end with a 
few budget points, and then get right into your questions.
    Last year, at one event I likened the NNSA job to that of 
flying a jet airplane, trying to change its engines while we 
were flying the mission and trying to do that with a bit of a 
short-handed crew. The job hasn't really gotten a lot easier 
since then. We are still putting our first priorities and most 
of our effort on flying our mission, on flying the airplane. 
That has actually gone fairly well. That is actually going 
pretty well.
    I am satisfied with the products, the performance of the 
great laboratories, the plants, and the great work that comes 
every day out of naval reactors. The leadership of all these 
sites is really focused on the hard problems, on output, on 
making strong contributions every day, and they are making real 
progress in improving business functions and improving 
practices. We are working together as a system of laboratories 
and plants in an way we have not seen for a few years at least.
    I can also report that we no longer have a short crew. Just 
the opposite. After literally about a year, we now have the 
strong leadership in place within NNSA so that if we, as we now 
want to change out these jets, meaning as we want to now change 
our organization, we have the people in place to make it 
happen. Only in the last few months have we had the 
confirmation of Ambassador Linton Brooks, with me today, and 
only a few weeks ago Dr. Everet Beckner, who runs the weapons 
program. Of course, we have had Admiral Skip Bowman in Naval 
Reactors for a long, long time. He is one we all go to school 
on.
    We have been busy. Despite not having in place the full 
management team for much of the last 13 months, I think NNSA is 
not without accomplishment. For probably the biggest and most 
important thing, and because of no small amount of support from 
Congress, we have been able to revitalize the mission of this 
enterprise. People feel good about their work, about what they 
do, they feel good about their future, and report that in the 
laboratories and the plants morale is up, recruitment is better 
and retention is better. We are making good progress on 
diversity; security and counterintelligence are strong. 
Infrastructure work that we have been doing and talked about 
with this Committee quite a bit is well on its way now, with 
complex-wide planning, a 10-year plan that is in coordination, 
a strong leader in place to do it, trying to make sure we have 
a disciplined process, to make sure that goes ahead.

                         REORGANIZATION OF NNSA

    We have a new relationship with DOD, a stronger 
relationship with DOD. It came about in no small part because 
of the work we did together on the Nuclear Posture Review, and 
we have forged some relationships and communications which I 
think also have been lacking for some period of time. We are 
happy with that. As I mentioned to several Members, and we 
briefed the staff, we have launched a fairly significant 
reorganization to streamline the NNSA, and we are going to 
eliminate literally an entire management layer of the complex. 
When complete, each of the 8 locations that support the weapons 
programs and the defense nonproliferation programs will report 
directly to a site office that is colocated with them, who will 
then report directly to the Headquarters of the Administration. 
We will then also be reengineering pretty much the entire 
Federal side of the complex to reduce the number of offices, 
streamline, eliminate unnecessary areas and focus on the really 
needed functions.
    What we are trying to do is seek a streamlined Federal 
function where laboratories and plant managers will be given 
clear and much more consistent expectations and can be more 
effectively held accountable for what we ask them to do.
    While we are doing that, we are taking some steps to make 
the organization more efficient as well. We significantly, and 
I can report this is done, we significantly changed the 
oversight structure for environment, safety, health and 
security. We have one organization that does that, does it to 
our standards, and does it in what we think is a more effective 
way but less intrusive and certainly in a less time-consuming 
way to get the same or better results.
    We have launched an initiative to try to cut the 
administrative workload down on our contractors by 50 percent; 
this is the goal we set for them. We asked them what do we need 
to do. It is kind of an irony, I guess, that what we found when 
we asked them what do we need to do to cut that administrative 
burden down, we got about this much paper, so we are now 
working our way through that. But there are many, many positive 
suggestions in there. We want to take the unnecessary work out 
of this system on both the Federal and the contractor side.
    Finally, in the same regard, we are running a major pilot 
program with Sandia National Laboratories to look at how we--we 
tend to call it the shorthand word, governance--but what we are 
trying to do is find ways to cut down on the regulatory burden 
that we place on our labs. We take Federal law, Federal 
regulation, that is put out by other agencies, agencies to 
which we have to comply, and then DOE or NNSA then reinterprets 
it for the contractors. We are not sure that this is always 
necessary. They can probably read EPA regulations as well as we 
can, and it will cut out a lot of reporting.

                        STATUS OF NNSA MISSIONS

    Everything I have talked about is pretty much process. In 
the area of mission, the stockpile stewardship program is going 
well. It confirms that the Nation's nuclear weapons remain 
safe, secure and reliable. We are continuing to improve our 
surveillance tools, and as we find aging problems and the 
occasional birth defect in a weapon, we know how to fix them 
and we go off and fix them. I would report that no identified 
problems that we found in the system, by the way, support a 
need for nuclear testing any time soon.
    Our science campaigns are moving ahead. NIF seems solid on 
its new track and has good strong leadership and management. 
Pit manufacturing and certification is coming around again 
because, I think, of strong and better leadership than it has 
had before.
    The nonproliferation programs continue to make good 
progress. We had a shot in the arm, and frankly a shot of money 
after 9-11 with the supplemental, and we have been able to 
accelerate some of the programs there that would reduce the 
threat.
    After a significant review by the Administration, we are 
launching a less costly, and we think, more effective plutonium 
disposition program in South Carolina.
    The Naval Reactors program continues to improve and produce 
literally every day.

                     NNSA RESPONSE TO SEPTEMBER 11

    Mr. Chairman, I am probably most proud of the 
organization's response to the tragedies of 9-11, from enhanced 
security to the people and the equipment that was deployed 
literally to the scene. I couldn't have asked for a more rapid 
and more competent, and frankly a more generous response from 
anyone.
    Heightened security responses remain in place today, at 
some expense and some hardship, but they are necessary. We need 
to rethink our architecture for security over the long run; 
however, I think we have about the best protected sites in the 
country today, and I intend to keep them that way.
    We are also showing the new Homeland Security Council the 
spectacular capability of our laboratories and our plants, and 
we have much, much to offer in the war against terrorism.

                    FISCAL YEAR 2003 BUDGET REQUEST

    Mr. Chairman, we really have made significant progress with 
our budget process as well and the support we get from the 
Administration. We are enjoying a new relationship with the 
Office of Management and Budget (OMB). We are broadly pleased 
with the increase in the budget submitted by the President and 
our 5 year plan is working through the Administration en route 
to the Congress.
    I would comment that the implementation of our Planning 
Program and Budgeting system is going more slowly than I would 
like, but I think we are still on the right course.
    The Secretary said yesterday that the budget we asked for 
NNSA is just over $8 billion. The increase in Defense Programs 
to $5.8 billion demonstrates the support the Administration 
gives to the weapons programs and puts us on a track to restore 
the health of the enterprise, its infrastructure, to accomplish 
the required work and to maintain the Stockpile and really 
building the long-term scientific base to support these weapons 
well into the future. The increase in funding goes largely to 
the core of our activities, about a 20 percent increase in 
Directed Stockpile Work, 10 percent in readiness, and about 25 
percent in the infrastructure recapitalization program.
    The request for $1.1 billion for the Defense 
Nonproliferation program is, again, as the secretary mentioned 
yesterday, the largest such request ever, and in some very 
unfortunate ways the events of 9-11 have driven home the 
importance of these programs.
    This increase to the budget comes after a long and fairly 
extensive review of our nonproliferation program by what was 
frankly a pretty skeptical audience in a skeptical environment, 
and I think that skeptical review has now supported the 
programs, has hopefully strengthened the programs, and 
hopefully strengthened the Administration's support for them. 
We didn't get our programs rubber-stamp approved. They took 
them apart pretty carefully.
    The budget will permit us to make real progress in all 
fronts in our programs, from MPC&A, through safeguards and 
security, and help weapons and material from falling into the 
wrong hands.
    We help at borders, here and in Russia. We are moving ahead 
with the sharp increase in funding for the plutonium 
disposition program that I mentioned earlier as we proceed with 
the MOX option. We are working to provide support for homeland 
security and develop advanced technologies to detect chemical, 
biological and nuclear contamination, and in that amount of 
money, the $1.1 billion, we have requested $283 million for 
nonproliferation R&D.
    Mr. Chairman, we are requesting $708 million for the Naval 
Reactors program, which supports the submarines and carriers 
now on station around the world. This is really a fairly small 
increase above inflation, where the increase goes primarily to 
bring the dry spent fuel storage facility in Idaho on-line, 
while obviously maintaining the safety, performance, 
reliability of operating reactors and getting ready for the new 
generation of reactors.
    Our ships have proved a vital deterrent for over half a 
century, and they show their importance every day in 
Afghanistan and in the fight against terrorism right now.

                             FUTURE OF NNSA

    Mr. Chairman, I intentionally want to sound optimistic 
about the future of NNSA and I am pleased with the direction we 
are going, and I want to lock in the successes we have had. I 
would not sit here and tell you I am fully content with where 
we are, with the pace of where we are going. Despite this 
optimism, certainly all is not perfect. We face risks and 
uncertainties as we move ahead.
    The changes that I suggested in the organization are going 
to be difficult to put in place. We are trying to change 
culture and change structures at the same time. We do run big 
programs that push the limits of technology. That in itself 
entails some risk, and there is near certainty that somewhere 
along the line I will be back up here talking about a program 
that hasn't gone quite right. We still frankly struggle with 
large and complex programs, and we struggle with this large and 
complex organization. I propose the directions are good, the 
mission is good, and the resources are becoming available.
    Mr. Chairman, that concludes my opening statement. I would 
be glad to go in any direction you like. We have a pretty 
extensive group of senior leaders that should be able to get 
into almost any of the questions you ask and go from there, 
sir.
    [The statement of General Gordon follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                NNSA BUDGETING AND APPROPRIATION PROCESS

    Mr. Callahan. Thank you, General. First, I applaud your 
efforts to reconstruct the design of your operation, and I 
assume that the ultimate end result of that will be tighter 
controls and less cost. I imagine that is what your direction 
is in any event, and I applaud that, if that is that.
    You enjoy a unique situation in this budgeting and 
appropriations process, because your money will be spent and 
requested in the defense function, yet all of the money has to 
be appropriated and come from the Department of Energy. So 
there is really no incentive for the Department of Defense to 
ask you to do things, other than being the good Americans that 
they are, to reduce your expenditures. But that is good for 
you, and I do not imagine you would want to advocate changing 
that in any way, to put all of this under the jurisdiction from 
the appropriations process to the Department of Defense, or 
either give some more responsibility as to the number of 
warheads, for example, that we might want to retain to the 
Department of Energy.
    But anyway, it is a unique concept that you enjoy, and 
certainly it makes your job easy, and I am happy to hear you 
say you enjoy a warm relationship with OMB. I would advise you 
that if you did not enjoy that warm relationship, that you did 
not say anything to this committee other than that. I think you 
know what I am talking about.
    Mr. Visclosky. This is a closed hearing. They wouldn't find 
out.
    Mr. Callahan. And also enjoy the fact there is no press in 
here. You have the best of all worlds, General.
    General Gordon. Mr. Chairman, if you would, the 
Administration has changed how we report, how we are examined 
within the Office of Management and Budget. For many, many 
years, maybe forever, we had gone up through the energy chain 
of OMB, and this Administration has asked OMB to help bring the 
programs a little bit more in alignment with the Defense 
Department, that our budget examiner be the national security 
budget examiner.
    Mr. Callahan. When you submitted your budget to OMB, how 
much did you request? Your submission, your request to DOD?
    General Gordon. I probably need some help with this for a 
precise number. The total was within a couple hundred million 
dollars. What was in the budget is very near our request.
    Mr. Callahan. Did you get more or less?
    General Gordon. Slightly less. $300 million out of $8 
billion.
    Mr. Callahan. Mr. Visclosky.

                    BUDGET REQUEST BY WEAPONS SYSTEM

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, last year the conferees, and I asked this question 
of the Secretary yesterday, directed the Department of Energy 
to include detailed information in the budget justification 
documents for its fiscal year 2003 and subsequent President's 
budget request to Congress for weapons systems. The Department 
has not complied with the committee's direction. Why not?
    General Gordon. I would reiterate, my answer would be the 
same as the Secretary gave yesterday. We made the first steps 
in that direction, and as we pointed out within the document, 
there is the first attempts to be able to go into that, go that 
direction, trying to bring truly what we know and how to assign 
the costs to individual weapons systems as a first attempt. We 
need to go further down that road. We will always have a 
problem in sort of trying to figure out how to allocate some of 
the overhead costs, which continue because we also keep in 
place a capacity and a capability.
    As we said yesterday, Mr. Visclosky, we understand the 
intent of what the committee is asking for. We are trying to go 
that direction. We would be delighted to continue to work to 
refine that process with staff.
    Mr. Visclosky. I have no further questions.
    Mr. Callahan. Mr. Frelinghuysen.

                             CYBER SECURITY

    Mr. Frelinghuysen. Thank you, Mr. Chairman. General Gordon, 
thank you for visiting my office. I also had a good meeting 
with Ambassador Brooks, and I appreciate it, and I think he 
found a co-enthusiast along with Mr. Edwards on some of the 
things we are doing relative to Russia and working with them.
    I was thinking to myself a year or two ago, this committee 
was embroiled in a lot of anger and concern about security at 
our labs, whenever we want to sort of look back and think of 
that Rudman report and all the things that the DOE was 
embroiled with, and that is sort of one of the reasons you were 
brought in to straighten it out and all the assurances are made 
that you have worked on changing the culture of the operation. 
Sometimes it is difficult to change the culture, but I am sure 
you are in the process of doing it. What you are about is 
pretty serious business, and we are glad that you are at the 
helm.
    I want to talk generally about the issue of vulnerability 
and risk in lay terms and perhaps concentrate on the broad area 
of cyber security. I would assume that those who want to harm 
us, and September 11 shows that people will stop at nothing, 
and I had an opportunity to say to Secretary Rumsfeld the other 
day, the public perception is we are dealing with people that 
are uneducated, that sort of have water packs on their backs 
and they are in Afghanistan, but there are a lot of bright 
people here working around our intelligence services, and you 
worked for the CIA, doing every conceivable thing to harm us.
    Can you update the committee on what you are doing relative 
to cyber security and what resources you are dedicating towards 
security of your various networks, whether that is lab-specific 
or DOE-wide?

                             CYBER SECURITY

    General Gordon. We fundamentally maintain three classes of 
data, three classes of systems. We maintain a security system 
where we maintain the classified system data. We maintain a 
system that deals with what we call unclassified but relatively 
sensitive data, which could include personnel data, schedules, 
travel, which people do not need to have access to, and then 
there is an open system to which the scientists and others need 
to be able to get in and operate, to be able to move data back 
and forth, to be able to understand that.
    The programs to strengthen the cyber security--let me start 
over again. The security that we have today around the 
classified systems seems to be extremely sound. We have the 
lead laboratories in the Nation looking at the vulnerabilities, 
and we have a very strong capability outside the laboratory, 
outside the plant system, that goes in and tests them and 
literally electronically banks into the systems to find out 
where they are. We are relatively satisfied with where we are 
today on the cyber security on the most secure systems.
    There are continuous attacks, and that may be too strong a 
word, but hacking, and we have had no indication to say there 
is any penetration of those systems from the outside despite 
fairly serious attacks on them, as well as all the Federal 
systems.
    The unclassified systems, after 9-11 we have gone down and 
taken some data off, which is always a struggle to think about 
whether we are doing the right thing on that. You go back and 
look in retrospect and there was facility design data and maps 
and things on there and things which just need not to be on 
there. We have taken about $30 million from the supplemental to 
continue to strengthen that work.
    I think a fully long-term aggressive cyber program to make 
sure we stay at the high levels of security we have on the 
classified system and strengthen that on the other systems is 
still in front of us. We put money against it. I am not sure we 
will ever do enough.
    Mr. Frelinghuysen. Is there a way to electronically 
cripple? In other words, I understand that people would gain 
access and do the hacking, but in reality, is there a way 
electronically just to turn your systems into mush? I 
understand the notion that people are constantly attacking the 
system and you are attacking. You have hired people to do it 
from the outside, too.
    General Gordon. It is a continuing basis to do that. I 
cannot tell you that that cannot happen. I can tell you that in 
the classified systems no one has been able to get in yet, and 
we are trying to stay one step ahead on a regular basis, on a 
continuing basis.
    I think we all worry about the ability of the systems, it 
includes such things as payroll to do that. I might take a 
slight diversion and tell you that as a Nation--I am really 
taking more of a diversion than you probably want to go--we are 
participating in work with Defense and others on better 
protection, better understanding, what we call SCADA systems, 
the systems that actually run the Nation's control system, 
power generating systems, dams, our electronic control systems. 
That I think is kind of a broad vulnerability for this country. 
We have a small effort at Sandia and others that work on that.

                         ELECTROMAGNETIC PULSE

    Mr. Frelinghuysen. Electromagnetic pulse, you are familiar 
with that?
    General Gordon. Yes, sir.
    Mr. Frelinghuysen. I have never gotten a satisfactory 
answer from any agency, and maybe you could address that 
through some sort of a comment, maybe not verbal now, but for 
the record.
    General Gordon. Generally speaking, EMP, if it is generated 
from a nuclear weapon, would be widespread, could put 
significant huge currents on power lines and could be extremely 
disruptive of both the kind of computer systems we started 
talking about and the diversion I took off into SCADA. EMP 
pulse, if properly coupled into power lines, could cause 
significant damage.
    I am not sure I have gotten into your other questions. I 
will try to give you something for the record, if I haven't.
    [The information follows:]

                  Information on Electromagnetic Pulse

    Electromagnetic pulse, or EMP, is electromagnetic radiation 
that, like light and radio waves can travel through space or 
the atmosphere and affect objects at a distance from the 
source. Electromagnetic radiation is produced when charged 
particles such as electrons are forced to change speed or 
direction. Such conditions can be produced naturally, such as 
in sunspots, or artificially, such as by a radar transmitter or 
a high power microwave weapon.
    Intense EMP can produce damage in weapons systems and in 
elements of our national infrastructure such as communications 
and power grids by generating large electrical currents. 
Nuclear weapons produce intense EMP when charged particles are 
created and move rapidly outward from the detonation, when the 
charged particles slow down in the atmosphere, and when they 
are forced to change direction on encountering the earth's 
magnetic field.

                 Countering the Effects of an EMP Event

    There is no universal solution to the EMP problem; however, 
NNSA's weapons laboratories have capabilities and experience in 
mitigating the effects of EMP associated with assuring nuclear 
weapon performance. The mitigation approaches are to employ 
protective electromagnetic shielding and to use electrical 
circuit components that will block or safely channel away 
harmful electrical currents. The laboratories have some legacy 
EMP environment computer codes and models, and are developing 
new ASCI-based computational tools to predict EMP effects.

                   THEFT OF RUSSIAN NUCLEAR MATERIAL

    Mr. Callahan. Mr. Edwards.
    Mr. Edwards. Thank you for the work you do and your 
leadership in these important areas for which you have 
responsibility. As someone who heads up our nuclear 
nonproliferation programs and specifically dealing with our 
programs with Russia, can you tell me, using whatever 
classified information you have, how many times do we know of 
when there has been theft of Russian nuclear material over the 
last 20 years?
    General Gordon. I would be delighted, Mr. Edwards, to 
request a record answer from the Intelligence Community for 
that. There are continuing--which would be a more accurate and 
official thing than from what I would remember--there are 
certainly continuing reports of relatively small quantities of 
material that have been intercepted at one or two locations, 
and there are continuing runs of what generally turn out to be 
hoaxes of such items as red mercury. But in the Intelligence 
Community there is data on one or two specific incidences of 
relatively small amounts of material. I know of no information 
on a weapon.
    Mr. Edwards. I would welcome a further briefing, but since 
we are here, we are in closed session, what is the most recent 
factual case of any amount of Russian nuclear material being 
stolen?
    General Gordon. I am in a bit of a box, because I don't 
know of anything in the last year or so. I would ask if there 
is anyone here, staff, that could suggest answers.
    I do need to beg off, because the one incident I know of is 
not particularly current.
    Mr. Edwards. How current was that?
    General Gordon. A couple of years.
    Mr. Edwards. Several years ago?
    General Gordon. A couple of years ago, 2 or 3 years.
    Mr. Edwards. From classified information you know at least 
as recently as 2 or 3 years ago, Russian nuclear material was 
stolen?
    General Gordon. In relatively small quantities.

                          INCREMENTAL FUNDING

    Mr. Edwards. The reason I ask that, and I would welcome a 
further classified discussion on that, is, because of the 
leadership of the chairman, Mr. Visclosky, Mr. Obey and members 
on this subcommittee to my left, we were able to incrementally 
increase funding for nuclear nonproliferation programs, and I 
welcome that. I applaud the administration's change of position 
last year in funding an increase.
    The question I can't answer, but I am going to ask myself 
this year, until I feel comfortable with it, is whether the 
incremental increased funding for nuclear nonproliferation, 
homeland defense against nuclear terrorism, is good enough? I 
applaud an 8 percent increase, but we do have the ability in 
government to act boldly. The President did so on national 
defense in asking for $40 billion increases. The House will act 
on a bipartisan basis boldly today to pass a $50 billion tax 
cut this year. Yet the total investment of our country to 
homeland defense against nuclear nonproliferation in the 
Department of Energy is $1.1 billion. We will pass a bill today 
that will cost 50 times that amount.
    I guess in a lot of areas, incremental increases are good 
enough. What you don't get done this year, you get done 2 or 3 
years from now, 4 years from now. When it comes to protecting 
our families from the threat of nuclear terrorism I am not sure 
incremental increases are good enough. Perhaps we need some 
change of mindset along the idea of the Manhattan Project or 
putting a man on the moon. Certainly protecting Americans from 
nuclear terrorism is as important or more so than putting a man 
on the Moon, as important as that was.
    The only way I know how to answer this question for myself 
this year is to start asking specific questions about not just 
do we get an 8 percent increase versus a 2 percent decrease, 
but what is the work that is not being done. So I guess I will 
finish this round with this specific question: How many nuclear 
sites are there in Russia that have not yet been visited by our 
Department of Energy officials?

                     RUSSIAN NUCLEAR SITES VISITED

    I believe that year I heard that 42 nuclear sites, we had 
actually gone into 26 of those and done the first level of 
fixing the hole in the fence, being sure there was a guard 
there at the front gate. I think in most of those we had not 
gotten to the second or third level of protection that would 
make us all feel more comfortable. Can you tell me specifically 
what has not been done, whether it was because of a lack of 
resources or lack of cooperation from the Russians? How many 
sites have we not visited?
    General Gordon. Actually, I have the number in front of me, 
Mr. Edwards. Of the Navy sites, there are a total of 53. 48 
percent of them have the rapid upgrades done to them now; four 
more to do this year, leaving one more to go. The comprehensive 
upgrades, you recall how we do those. We go in and do a triage, 
if you will, do what we can right away. The comprehensive 
upgrades have been done on 14 of the sites, four more this year 
and seven more scheduled for the year following.
    So to point to your question, your prior question, could 
you do those even faster for the more comprehensive upgrades, 
we are in pretty good shape on having done the quick look, get 
the doors locked, the things you can do quickly. So we can go 
back and rebuild the system, rebuilt the security system. Of 
the Navy systems, 14 of them are complete, four of them are 
under way.
    In the similar sorts of numbers in the MINATOM sites, the 
civilian sites, a total of about 29 sites, 15 with the rapid 
upgrades, five under way, two coming next year, which leaves a 
couple out there. Comprehensive upgrades are done on 11 of 
them.
    The good news I think is with the sites outside of Russia, 
in the former Soviet countries, both rapid and comprehensive on 
the 13 sites we work on.
    I would also point out that is not the universe of weapons 
or materials. It is those for which the allocation of the 
Department of Energy and NNSA is working on, and other sites 
the Department of Defense is working on. I would give this for 
the record if you would like.
    [The information follows:]

              Material Protection, Control and Accounting

    The U.S. has identified 95 Russian and NIS sites in need of 
security upgrades. Fifty-three of these sites are Russian Navy 
warhead and fresh fuel sites and the other 42 are MinAtom and 
NIS civilian sites. To date, U.S. Officials have visited 72 of 
these 95 sites.
    Specifically, we have visited 34 of the 53 Russian Navy 
sites. Visits are required for all sites prior to beginning and 
after completing comprehensive upgrades. Given our accelerated 
upgrades schedule, the remaining 19 Russian Navy sites will be 
visited shortly.
    We have also visited 38 of 42 MinAtom and civilian sites. 
The four sites not yet visited are the serial production 
enterprises. These are the most sensitive of all Russian sites 
and discussions are currently underway regarding MPC&A upgrades 
needs and visits for these sites.

    Mr Edwards. Thank you for your answer. If you could clarify 
whether that information is classified versus nonclassified, I 
would appreciate that.
    My time is up. I will just conclude by saying the answer in 
summary is there is still much work to be done and Congress 
will have to choose if we are going to do it incrementally or 
more boldly.

            MATERIAL PROTECTION, CONTROL, AND ACCOUNTABILITY

    General Gordon. I don't want to discourage that line, 
because actually I agree with it. The more we can do, the 
better. That is an important consideration. I would say that 
there are practical issues coming about in terms of how fast 
the Russians can respond. One of the comments we have made is 
with respect to material protection control and accountability. 
We think that program is appropriately funded. The way we are 
doing business and the way the Russians are doing business, it 
is funded about to what they can absorb.
    Mr. Callahan. I might remind the gentleman from Texas that 
the issues on the floor of the House and Senate with regard to 
stimulus have really nothing to do with this issue. If he will 
read yesterday's GAO report, the President said last year if we 
passed his stimulus bill, which includes rebates, we could 
still have surpluses. Now GAO says they underestimated, and we 
will have surpluses in 2002 and 2003 because of the stimulus 
program. So the President's program conceivably could actually 
provide more money to accomplish the mission that you and I 
both want to accomplish with respect to nonproliferation.
    Mr. Edwards. Mr. Chairman, just very briefly, because I 
don't have an argument with what you say. I think my point--I 
may vote for the bill today, but my point is that Congress can 
act boldly with big dollars, not 2 percent, 5 percent changes, 
when we make our mind up to do that. I am not here to criticize 
past stimulus votes or bills.
    Mr. Callahan. I understand that. I just wanted you to know 
that OMB has requested a very generous amount of money to run 
General Gordon's operation for the year. At some point during 
the process, we are probably going to respond favorably to 
their request. I commented earlier that I am at the point now I 
don't dare accost OMB. They are liable to run me off before 
December.
    Let me ask one question before we go further. With respect 
to Mr. Edwards' request about the Russian problems of stolen 
plutonium or whatever, you say that you recollect one. Do we 
know what happened to it or were they just reported stolen, or 
do you know?
    General Gordon. The incident I am aware of has been 
resolved. But, again, we are in the wrong--it is not my data 
and it is a compartmented program.
    Mr. Callahan. You don't think it got into the hands of 
another country? You think they resolved it?
    General Gordon. I think on the particular case, there is 
still an uncertainty on the part of the material.
    Mr. Callahan. Mr. Wamp.
    Mr. Visclosky. Mr. Chairman, could I ask what do you mean 
it is compartmented?
    General Gordon. It is intelligence data. I don't control 
the access to the data is all I am saying, sir.
    I will be glad to present this to the Intelligence 
Community.

                      INFRASTRUCTURE MODERNIZATION

    Mr. Wamp. Thank you, Mr. Chairman. I know we have a vote 
on. I am going to try to expedite and try to come around on the 
second series. I want to associate myself with the comments Mr. 
Frelinghuysen made about the culture and the change in 
attitudes throughout the complex. It is very noticeable, 
particularly from my vantage point, which is from the inside 
out, having a facility in my district and being so close to the 
changes over the last 7\1/2\ years. I want to encourage you to 
stay as long as you possibly can or will. We need you, and I 
will come back to that later.
    In 1999, the Congress basically brought about what is known 
as the Foster panel, which was a panel to assess the 
reliability, safety and security of the nuclear stockpile. They 
recommended annual investments over the next 10 years of $300 
million to $500 million to modernize and just bring to an 
adequate level of safety and reliability our facilities 
throughout the complex. This past year we did $200 million. The 
President's request is for $234 million for the coming year.
    My question is, with a little differential there between 
what they recommended and what we are actually seeing, what is 
your feeling about the refurbishing of the complex over the 
next 2 years based on the funding levels that we are seeing now 
for upgrading the infrastructure?
    General Gordon. I think we are about right for where we are 
right now. Certainly some of the work that is done in the 
facilities is done with program money as well for supporting 
very specific improvements of the facilities. We need to get 
this program up and running and show we can get the projects 
done, control them right, and what we are looking for in a 5-
year plan would continue to hopefully increase that as we get 
our legs and our ability to make sure we can execute the 
programs properly.

                        AGING NUCLEAR WORKFORCE

    Mr. Wamp. The two major domestic priorities I have seen and 
focused on, concerns I have, are the aging infrastructure which 
you just addressed, and we are now beginning to see significant 
improvements there, but the other is the graying workforce. At 
my site we have an aging workforce that we have to find ways to 
bring younger people along with the skill sets for the kind of 
precision manufacturing. When you are talking about 
disassembling the entire process, this is a very precise 
business we are in.
    What are we doing to make sure that we have the workforce 
for 10 years from now on the job in our nuclear weapons 
facilities?
    General Gordon. Well, you put forth a really tough problem 
that I am not sure I have a particularly good answer for right 
now, to be honest. I think a lot of things go together. The 
simple fact of the mission is now that there is a long-term 
mission that the Congress has identified, that the President 
has supported, that allows people to see out, that there are 
jobs, positions, futures there and we can encourage people to 
come in.
    The support of the infrastructure itself has got to have an 
effect, when people can see where they want to go to work.
    When we go to the site in your district, Mr. Wamp, and look 
at the place where we ask people to change clothes before they 
go into a secure area that hasn't been worked on since 1950, it 
is an embarrassment. I wouldn't go to work in that environment. 
I don't know how they would encourage one of their kids to do 
it. They do, but I don't know how.
    The kind of easy answer I am going to give you right now is 
that the mission is strong, the people understand that this is 
an issue at all of the sites. There are ideas being put forth 
on intern programs that are beginning to pay off. There has 
been some significant success at the sites, and particularly at 
Y-12, in being able to hire new, fresh, young engineers. That 
has actually been very successful at both Y-12 and ORNL, to 
reach out through the work with the university to bring some 
people in at that level.
    So there has been a modest success at that level. I think 
in terms of really reaching down into the depths of the 
organization, we don't quite know how to do that as well as we 
should.
    At laboratories, we are seeing a lot of improvement in that 
area. Younger people are coming, some of it is dot-com related.
    Mr. Wamp. I will come back in the next round.
    Mr. Callahan. Mr. Clyburn.

                        MIXED OXIDE FUEL PROGRAM

    Mr. Clyburn. If I may, I would like to ask about the MOX 
program, as I did with the Secretary the other day. I see you 
have $334 million in here for the start of that. I asked the 
Secretary whether or not that--I guess this is for design, and 
whether or not this is dependent upon what happens with Russia, 
or are we committing ourselves to do this irrespective of what 
the Russians play do?
    General Gordon. I think this panel has in the past said 
that they certainly are committed to the design of the system. 
The Secretary was trying to say yesterday he has high 
confidence that the Russians are going ahead with their 
program, that they probably did take a step back a year ago 
when our program slowed down, because they didn't know whether 
we had a program or not. All indications are the Secretary's 
visits over there, Ambassador Brooks has worked there, 
indicates that the Russians are fully committed to the program.
    I don't think this is a significant issue. I understand the 
State Department may have an issue. I would like to turn around 
and ask Ambassador Brooks if he would like to add anything to 
that.
    Ambassador Brooks. We believe that having a firm U.S. 
program will resolve any questions that may have existed about 
the Russian commitment. In fairness, last year there was a lot 
of suggestion we might cancel the program. If you were the 
Russians, you would have wanted to keep your options open. Now 
it is clear we have a firm path forward, and we believe that 
there will be a comparable Russian program. They are as 
committed to this as we are.
    Mr. Clyburn. That is all I have, Mr. Chairman.
    Mr. Callahan. I suppose that we had best go vote. This is a 
very crucial vote that we have. We are questioning whether or 
not we ought to agree with the previous question.
    General Gordon. Mr. Chairman, I thought you did that 
yesterday.
    Mr. Callahan. I thought we did, too, so it is redundant. 
But we would ask that you continue to keep your 31 staffers on 
the payroll during this 30-minute recess while we go over and 
handle this, and we will be right back.
    [Recess.]
    Mr. Callahan. I know you will be happy to know that the 
previous question movement passed by a partisan vote, but 
nevertheless passed.
    Where were we? I guess Ms. Roybal-Allard.

                       NATIONAL IGNITION FACILITY

    Ms. Roybal-Allard. General Gordon, last year you testified 
about the importance of the National Ignition Facility to our 
stockpile stewardship program. However, your budget documents 
indicate that the National Ignition Facility remains on track 
and is scheduled for completion at the end of fiscal year 2008. 
But you proposed a $54 million reduction in the NIF, including 
the reduction in NIF diagnostics, the experimental program, and 
the NIF construction.
    Can you tell us the impact that these proposed reductions 
will have on next year's program and will you be able to stay 
on track and also when will the experiments at the facility be 
initiated?
    General Gordon. What we pushed off in funding a bit is some 
work on the cryogenics and some of the target work that would 
affect the very end of the program. By all our measures, we are 
very much on track for the next several years in other areas. 
We expect to have the first experiments in 2004. We don't 
expect any changes in that portion of the program. This is not 
a major near-term effect. It could have an effect at the end of 
the program on the exact date upon which one would actually be 
able to reach ignition.
    Ms. Roybal-Allard. So the 17 percent reduction in 
experimental support technologies and the elimination of the 
inertial fusion technology program, I thought these were 
programs that were key to effectively using all of our high 
energy capacity facilities. You are saying there will not be a 
detrimental effect?
    General Gordon. We are trying to balance an overall 
program. The first set of experiments will not be affected. If 
we can't make this up in other periods, there will be an effect 
that stretches that part of the program out a little bit at the 
end.

              NUCLEAR TEST MONITORING RESEARCH PEER REVIEW

    Ms. Roybal-Allard. Okay. For the past 3 years, this 
committee's reports have encouraged or directed a peer review 
competition for a portion of DOE's nuclear test monitoring 
research and development. In fact, a report issued last year by 
an outside group established by the Department to review the 
Office of Nonproliferation Research and Engineering included a 
similar recommendation, particularly with regard to seismic 
verification technologies for very low yield underground 
nuclear tests.
    What are the Department's plans to comply with the fiscal 
year 2002 report language to have a peer review competition in 
ground-based nuclear test monitoring research?
    Ambassador Brooks. If I may, General, I suspect I am going 
to be asked to answer that one. We do intend to comply. We had 
an approach which, after discussion with staff, we realized was 
not an appropriate approach, and now we have an approach which 
is fully consistent with the Congressional language. I will be 
happy to provide the details for the record since I don't think 
I have them.
    [The information follows:]

                  Ground-Based Nuclear Test Monitoring

    DOE plans to comply fully with the Fiscal Year 2002 Energy 
and Water Development Appropriations Bill Conference Report 
language requiring free and open competition in 25 percent of 
the ground-based nuclear test monitoring research and 
development activities. From Fiscal Year 2002 Nonproliferation 
and Verification Research and Development Program funds, we 
have already obligated $2.4 million on proposals competitively 
selected from last year's solicitation and are preparing a new 
solicitation on which we plan to obligate an additional $2.5 
million in Fiscal Year 2002 funds. The total, $4.9 million, is 
approximately 25 percent of the $19.5 million appropriated for 
the ground-based nuclear test monitoring program in Fiscal Year 
2002.
    The FY 2003 funding request for ground-based nuclear 
explosion monitoring R&D is $20.2 million.

            NUCLEAR TEST MONITORING RESEARCH AND DEVELOPMENT

    Ms. Roybal-Allard. Do you know how funding is in the fiscal 
year 2003 budget?
    Ambassador Brooks. I will have to provide that for the 
record.
    [The information follows:]

                  Ground-Based Nuclear Test Monitoring

    The FY 2003 funding request for ground-based nuclear 
explosion monitoring R&D is $20.2 million.

    Ms. Roybal-Allard. Thank you. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Doolittle.
    Mr. Doolittle. I have no questions, Mr. Chairman.

                  NUCLEAR WEAPONS STOCKPILE REDUCTION

    Mr. Callahan. Let's talk about the tentative agreement with 
President Putin a little bit more in depth. My observation of 
what I read on it was public information that we were both 
going to downsize to a certain level. I understand that all, if 
not most all, of our warheads are being kept in a reserve 
status, an active reserve status, that we are just downsizing 
the methodology of delivery, and even that appears from the 
information we have received to be far less than what we 
understood the agreement with Russia to be.
    Can you elaborate on where we are on that, where we are 
going to be, and why, if we are not reducing the warhead 
inventory; why Russia would accept that as a downsizing of 
warheads?
    General Gordon. Okay. Anything I tell you about how it will 
come out is uncertain, because there are discussions under way 
at pretty high levels with State Department and others right 
now on what the final decisions, what the terms of an agreement 
might look like, what is the legal framework and structure of 
an agreement.
    The NPR and the President's perspective on the future of 
the systems is that over a period of time we would reduce the 
number of weapons deployed on delivery vehicles to a number on 
the order of 1,700 to 2,200. That will take awhile to come 
down. As you come down off the current inventory, the weapons 
that are not on delivery systems or committed to go to a bomber 
are a form of active reserve.
    The decisions within the Administration, led largely by the 
Department of Defense, on what is required to in their judgment 
have available for spares or for re-uploading if the reductions 
do not go as some would hope are numbers that actually have to 
be determined as time goes on.
    I think the concern has been raised that the NPR itself 
does not commit systems to dismantlement, and I think that is 
also a correct interpretation.
    I think it is not a correct interpretation that they would 
not be, in the end, weapons dismantled; but it is just they 
have not gotten to that point in the set of decisions yet.
    Mr. Callahan. All we are doing based upon the limited 
amount of information we have is that we are just going, if we 
are at Start I, start it at 6,000. By the year 2012 we would be 
between 1,700 and 2,200.
    General Gordon. Correct.
    Mr. Callahan. But all we have done is remove the active 
weapons from active time to an inactive status so we will not 
have reduced our capabilities at all. We have just reduced the 
missile or the conveyance of the warhead, and I do not see 
where we are doing anything. And is Russia doing the same 
thing? Are they going from active to inactive, or are they 
actually deploying or dismantling their capability?
    General Gordon. I think that is an open issue, Mr. 
Chairman. I think it is just not entirely known where this 
goes. Again, the discussions on what happens in that arena is 
yet to be determined in part in discussion with the Russians. 
The intent of the Administration and NPR is, in fact, to 
maintain a reserve so that if the reductions do not go as 
hoped, if the world situation changes, in a situation where we 
are not now able to build new weapons, should we have to rearm 
that there is a flexibility in being able to do that.
    How the numbers to in the long term, though, I think the 
President and the Department of Defense are not ready to make a 
permanent irrevocable sort of a decision that would come about 
in looking for about 10 years out when we are in this very much 
of transition time.
    I would urge that we think, though, that this really is a 
reduction. When you take one of these ICBM weapons, take it 
from however many it carries now, put a new type of a bus on it 
that only carries one RV on it, that is a huge change, and they 
do not load quickly and easily.
    Mr. Callahan. But from the stockpile, I mean currently we 
have 10,000 or so, and at the end of even this period through 
2012, we will still have 10,000 capabilities; is that correct?
    General Gordon. My personal opinion is that as this 
unfolds, there will be explicit decisions made to retire some 
of these weapons.

                         STOCKPILE REPLACEMENT

    Mr. Callahan. And how about because of the aging process 
and the testing of--what do they call them, pits, or what do 
they call them--when they go in and check to see if they----
    General Gordon. Surveillance.
    Mr. Callahan. But what our capability of seeing whether or 
not our aging stockpile actually is in good shape or we are 
testing--I know, or at least I think there are some contracts 
out there to test the possibility of downsizing and replacing 
if necessary. We do not have a replacement capability at this 
point, do we?
    General Gordon. The state of the complex is that we do not 
have the ability to rebuild new systems from scratch in any 
reasonably short period of time.
    Mr. Callahan. So I mean, most of our stockpile is 40 years 
old or older.
    General Gordon. I think the average is closer to 20, but 
every day it is a day older and there have been no new weapons 
entered into the stockpile recently.
    Mr. Callahan. So we really do not know what is happening to 
the insides of these weapons with respect to the radiation.
    General Gordon. We actually know a lot about them. That is 
really the essence of the surveillance program where we take a 
number of weapons out of each type, take them apart in detail 
every year, and look at quite literally every part of them. And 
that is the core of the stockpile surveillance program. So as 
they age, we need to be able to understand what ages, how fast 
it ages, and be in front of the fixes instead of trying to play 
catch up.
    Mr. Callahan. [Deleted.]
    General Gordon. [Deleted.] This is the whole essence of the 
pit problem that has come out over the years. The pit 
production capability of this Nation was shut down before the 
full range of spares were built. the pit production program at 
Rocky Flats was shut down in the middle of the production run 
for the W88. So that is a system that has always been short of 
spares.
    For all these systems--this is maybe down to more detail 
than you want--but we take 11 weapons out of stockpile every 
year, take them apart looking for problems, and we rebuild 10 
of those. So I lose one weapon out of every year because I 
destructively test it.
    And we are on a path on the W88 if we do not build any net 
pits, we will actually have a few out of the inventory while we 
are testing them that we will replace them.

                         INACTIVE STATUS OF W84

    Mr. Callahan. But you take all of the W84s, you took all of 
them out and put them in an inactive status, why do we need the 
W84 if we don't have any of them in an active position? Why do 
we think that we need those in the event that there is some 
change in the world order that might require the reactivation 
of these? Why do we need to continue to stockpile the W84 when 
we have zero in the active file?
    General Gordon. I do not know that there are any plans to 
use the W84.
    Dr. Beckner. There is not.
    General Gordon. Are those committed for dismantlement?
    Dr. Beckner. They are not. The view is that this is a very 
modern design.
    General Gordon. This is the Deputy Administrator, Everett 
Beckner, who was recently confirmed and runs the weapons 
program.
    Dr. Beckner. It is a very modern design. It was taken out 
of the active stockpile when the ground launch cruise missile 
was retired by the Army. The view is that should it be required 
at some future date, it would be a good candidate for a number 
of the systems that are presently in the stockpile. So it is 
just a hedge against possible failure of some system in the 
future. There is no present requirement for it, but we have 
been asked by the DOD to continue to surveil it and to continue 
to report on its reliability.
    Mr. Callahan. I mean, why wouldn't the DOD tell you that? 
It does not cost them anything. I mean, it costs the Energy 
Department, though, a lot. And I am just asking the question. 
You guys are the people in charge of these programs.
    General Gordon. It is just that kind of a judgment that has 
to be made. It is a modern, safe, effective system with a 
warhead which could be used in a different situation, since we 
cannot in fact today build new systems.
    Mr. Callahan. So you would think that at the end of all of 
this, that the year 2012 we would probably have a larger number 
in an inactive file, a smaller number in the active file, but 
we would still have an overall capability of 10,000 warheads?
    General Gordon. The official decision has not been made by 
the Administration on where that top number is. I am just 
expressing personal opinion.
    Mr. Callahan. How many would you all think we need?
    General Gordon. I would like not to opine on that, Mr. 
Chairman, and really reserve that for the military 
requirements.
    Mr. Callahan. I wouldn't mind if you took a couple of them 
over to Afghanistan. That might open some of those caves up. I 
don't mean to make light of this. I am just trying to get an 
understanding in case we are questioned of what is our goal. 
Our goal is, from all of our START agreements and in all of the 
downsizing of warhead agreements, it appears to me that in the 
year 2012 that the United States is going to have a capability 
of a minimum of 10,000 still capable of being put on some 
delivery system to afford us protection and the armament we 
need. And I just wonder, what are the Russians doing with 
respect to active-inactive files?

               RUSSIAN STAND ON ACTIVE/INACTIVE STOCKPILE

    General Gordon. The Russians are still building new 
weapons.
    Mr. Callahan. They are still building. That was another 
question we had.
    General Gordon. They are still building new weapons. Small 
production numbers.
    Mr. Callahan. What about inventory; are they dismantling 
their warheads as well?
    General Gordon. They tend to take some of the old ones 
apart. There is a whole other set of the calculation here we 
don't even show. We don't talk very much about tactical 
warheads. We have very few of those in the inventories. The 
Russians have perhaps more than 10,000, probably, in some forms 
of inventory. So there is a very different perspective on how 
we think about those. I will give you a better number.
    Mr. Callahan. But you think somewhere around that they 
would have the capability?
    General Gordon. Of a different style of a weapon. But again 
I would suggest, Mr. Chairman, that in the end some of these 
systems have proven to be old, and in a way that you do not 
want to retain them and that they will be committed for 
retirement. And when they are committed for retirement we will 
work them into the system.
    You are right to talk about the cost of the system but, for 
example, maintaining a W84 at the level it is done now is 
relatively modest. We take a few apart, put them back. They 
reside in a secure storage area for the rest of the time, and 
it is a relatively modest cost compared to what the cost would 
be of building a new system. And I think the whole purpose of 
this active-inactive idea as we figure out with NPR is just to 
provide the flexibility and the hedge both for changes in the 
international environment, changes in the environment in which 
we can actually work on the weapons, and uncertainties that 
might arise in a different weapon from aging problems.
    It is a hedge, and the question you are asking: Is the 
hedge worth it?

                      UNDERGROUND NUCLEAR TESTING

    Mr. Callahan. Let us shift briefly to testing. I know that 
you have some study request in there. I think $15 million for 
Nevada to do a study on the testing of an underground device, 
and yet at the same time the people in Nevada are raising 
concerns about the fact that we are building Yucca Mountain 
facilities to store spent nuclear fuel, and we are going to 
spend $15 million in studying whether or not it should continue 
to be done in Nevada or could be done in Nevada or might be 
done in Nevada.
    And I think the people of Nevada are supportive of this 
because it means white collar jobs to study. But what if the 
study comes back and says that we should do testing there 
sooner, then what do you think Nevada is going to say? I mean, 
if they are raising this much concern about the storage, what 
about the reinstituting of testing?
    General Gordon. We maintain a capability to test there 
today. That is well known, especially to the citizens of 
Nevada. The question in my mind has been, are we adequately 
ready to resume testing if it should be required? And as I 
suggested in the opening statement, I don't have anything out 
there today that says it has to be tested because I have 
uncertainty about its safety or its reliability.
    But I would say it is my personal judgment, and it has been 
reflected in the NPR, but it began with my personal judgment 
that the requirement to maintain test readiness in the 2- to 3-
year time frame, which has in fact slipped to where it is more 
like 2\1/2\ to 3 years that I could conduct a full-up nuclear 
test if directed, does not meet my perspective of what I am 
asked to do in terms of stockpile stewardship; which is, should 
we discover a problem with a system, should the world situation 
change in a very different way, would we be prepared to conduct 
a nuclear test?
    It sounds too cute perhaps, but I have this vision of going 
up to the President saying, Mr. President, I have got this 
terrible problem, and it is affecting a huge portion of our 
stockpile and we really need to get on it and fix it and I 
really need to do a test, and you have got to change the 
moratorium, and on and on. And he says, great, when are you 
going to do it? And I say, not in your term, sir.
    Mr. Callahan. What will the study do?
    General Gordon. Part of the money is to figure out what we 
think the right time frame would be, but I actually want to 
begin to accelerate the process to be able to do the testing. I 
cannot make the 2-year date right now. I need to spend some 
money.
    Mr. Callahan. Are you trying to get even a lower date than 
2 years or maybe 12 months?
    General Gordon. The NPR and the Secretary charged us to go 
off and take a look at what we think the right answer is. My 
instincts are that certainly 2\1/2\ years is too long of a 
period of time. I admit it is not one, Mr. Chairman, that lends 
itself to a precise analysis that says what is exactly the 
right date. It is a judgment call, at least in my mind.
    If I could have one more second to discuss your comments 
with respect to Nevada. I don't know what their reaction would 
be in Nevada. I would comment that it seems to me that the 
citizens of Nevada have been able to separate in their minds 
the very strong support that that State has given to national 
defense over these many, many years and the concept of the 
Yucca Mountain, which in some of their minds they treat in a 
very different way.
    Mr. Callahan. Well, I know that, but if you start talking 
about exploding some device that would be perceptible from Las 
Vegas.
    General Gordon. Well, Mr. Chairman, we do it underground. 
We would have a real problem if it were visible from Las Vegas. 
We would have a major error.
    Mr. Callahan. You don't think the underground testing would 
create a capability to be felt from a hundred miles away?
    General Gordon. They might very well, depending on the size 
of it, feel the shock, but there would be nothing visible.
    Mr. Callahan. Mr. Latham.

                   TRANSPORTATION SAFEGUARDS DIVISION

    Mr. Latham. Thank you, Mr. Chairman, and I am going to be 
very very brief because I have got to chair another hearing 
this morning. Yucca Mountain brings up the issue I was going to 
ask you about, and with the incident on September 11th, huge 
controversy in my State and I think probably every other 
Member's State, about transportation of spent fuel. And I would 
just like to hear your response, I guess, on the concern about 
transportation. Have there been additional steps taken, can we 
give our constituents peace of mind as to the transportation 
that can be done safely?
    General Gordon. I would like to offer the DOE position for 
the record on that, if I might, because I don't have 
responsibility for the fuel side. I would say that I do have 
responsibility for the weapons themselves when they are 
transported and--not for spent fuel, but the weapons-quality 
material when it is transported by a group we call the 
Transportation Safeguards Division and we fund it as the secure 
transportation asset. It shows up in the budget documents.
    That is one tough group of people. I have ridden with them, 
worked with them, and I have looked at the work they have done 
after 9-11 when we shut them down for a reassessment. They are 
very hard. They are run by Federal agents who are trained at 
our facilities on the use of lethal force. They go in convoys, 
and are well protected, well armed, and practice tactics that 
are designed to be able to respond to virtually any threat, and 
if the tactics were to break down in some way, the weapons 
themselves are secured inside safe, secure trailers. And 
getting into one of them is no mean feat, and if you get into 
one, you don't want to be there because you are going to get 
killed while you are in there, to be brutal about it.
    I am very confident in our ability to move weapons and 
special nuclear materiels and in the quality of the people. We 
stretch them a bit. We have for a good number of years. 
However, we do not have enough agents. Some of the agents are 
getting a little older as well. We restarted it long before 9-
11, reenergized the training class. People are coming to this 
class willingly. We are not having trouble attracting people. 
They come out of the military and are well paid by DOE.
    We have made changes in the tactics and in the visibility 
of this system post 9-11 where we assume a threat is greater 
than we ever assumed before, and we practice against that 
larger threat, and we will continue to revalidate that at live 
fire exercises on a regular basis. I am very confident in that 
capability.
    I will offer a more considered answer on the DOE spent fuel 
portion as well.
     Mr. Latham. Okay. I thank you very much. I am going to 
have to leave, Mr. Chairman. Thank you.
     Mr. Visclosky. More of a comment, Mr. Chairman. My concern 
here is that we are spending money on NIF. We are asked to 
spend money accelerating our preparedness for underground 
testing. We have the issue of the stockpile of inactives. While 
it is anticipated that we will not have 10,000 warheads, at 
some point in time, my sense is what we are asked to do in 2003 
is to calculate for 10,000 because nobody has told us 
differently. And I think it is pretty amorphous, but we are 
dealing with hard dollars and we have a limited number of 
dollars here.
    General Gordon. If the number were 5,000 today, I don't 
think the front-end numbers would look any different. We had it 
planned long before the NPR came about to do a stockpile life 
extension program on some 60 percent of the stockpile, not 100 
percent. The schedule has been looked at over the last several 
years. Much of the funds that we are talking about here are 
rebuilding capabilities to do these service life extension 
programs, not to build a new capacity. And, to first order over 
the next couple of years the budget requests that would come 
forward that involve directed stockpile work to fix these 
weapons is relatively insensitive to the total numbers.
    We still need to run--I don't know whether we are going 
to--we still need to run these systems through and we need to 
run the front end of the block of the system through so the 
marginal savings that come from the piece work of the 
individual systems, come later, not earlier.
    Mr. Visclosky. Thank you, Mr. Chairman.

                    CYBER SECURITY AND BASIC SCIENCE

    Mr. Frelinghuysen. Just one more comment about the national 
security. The National Institutes of Health are going into some 
sort of budget mentality over in Bethesda and putting up a 
fence. I would like to know what additional work we are doing 
relative to one of the aspects that you mentioned, the 
tradition of the labs having what is commonly referred to as an 
open and scientific environment. There has always been that.
    Sort of gets to the culture issue here. We see a lot of the 
Federal agencies sort of hunkering down there, and to your 
credit, you have done a lot to sort of batten the hatches here, 
but how does this cyber security relate to the whole tradition 
of sharing of information? Is that information still being 
shared?
    General Gordon. I think what we would call basic science, 
basic research data, is well publicized, well spread and 
available. Where we try to draw our lines or where we draw our 
lines are with the classified data, and the classified data is 
shared with those people who have a need to know and are 
involved in the programs. But the basic science data is put out 
as raw and basic science.
    I feel like I am not getting to your question.
    Mr. Frelinghuysen. The reason I mention that is I haven't 
visited all the labs, I have visited a few. The people I met 
are enthusiastic about their work, the brightest, the best, but 
this was prior to a couple of years ago. There was always the 
feeling that scientific communities in Russia, India, and 
Pakistan, that almost instantaneously they could share the 
excitement of a lot of what was going on in our laboratories in 
terms of discoveries, and I assume this has do with basic 
science.
    General Gordon. I think that is a fair statement on the 
basic science.
    Mr. Frelinghuysen. Does that still exist on that flow of 
information?
    General Gordon. From the basic science, I think from my 
understanding of the situation is that basically exists. What 
we try to take down off those nets are things that are not 
science, that are maps to our facilities or employment records 
or any of that kind of thing that could give someone a 
different kind of an edge than a scientific agency. But the raw 
science, the basic science, that is done some in my 
laboratories. A lot in the DOE laboratories is still in an open 
scientific literature, so it is available electronically.
    I still have a feeling, Mr. Frelinghuysen, I am not getting 
at what you are asking.

                          BIODETECTION SYSTEM

    Mr. Frelinghuysen. We will leave that subject maybe a 
little closer to home.
    The biodetection system known as the Biological Aerosol 
Sentry and Information System, BASIS, was developed at two of 
our national labs, according to the report in the Washington 
Post. Could you just comment on where we stand with that and 
all of the things that are attributed to its deployment?
    General Gordon. I don't think I remember all that was in 
the Post.
    Mr. Frelinghuysen. I am not suggesting that they are the 
fount of all information, but for many of us it was the first 
time we had ever heard about it.
    General Gordon. I don't remember the details, but the BASIS 
system was developed by a couple of the laboratories with the 
ultimate goal of deploying it as a test basis for the Olympics. 
It is a relatively straightforward system, looks like an EPA 
air filter monitor which takes in air over a period of time. 
The filters are removed, taken to a laboratory and tested for 
biological agents, pathogens, that might be deposited on the 
filter paper.
    Mr. Frelinghuysen. Is it purely biological?
    General Gordon. Yes, sir.
    Mr. Frelinghuysen. Or do they have the ability to also do 
nuclear?
    General Gordon. The system called BASIS is purely 
biological, and you have to decide what you are looking for. 
You have to go test the sample for anthrax and for anthracis or 
for plague or whatever. You just don't take the filter paper 
and find out what is there, you have to say is there anthrax or 
something else. But the system called BASIS is biological.
    Mr. Frelinghuysen. Are the labs working on what a lot of 
entrepreneurs constantly bring to our attention, through our 
doors, you know, chemical sensors, airborne; are your people 
working on those types of systems?
    General Gordon. We think in many cases they are leading the 
way. The labs out of the non-proliferation R&D budget and some 
work for others have been on the leading edge of much of the 
work. That work that was done at the beginning of the anthrax 
events, the actual typing of it, which determined it was the 
Ames strain, actually came out of work done by Los Alamos in a 
laboratory where years ago, in work to support the United 
States Intelligence Community, we picked up some capability to 
begin to understand certain biological warfare systems. And at 
that time--perhaps it is still correct--the Centers for Disease 
Control, National Institutes of Health, were really not 
particularly interested--and I would agree with them--in doing 
great research on biological weapons and things for the 
Intelligence Community. They have other standards and other 
places they have to operate without being in the Intelligence 
Community. So this capability was built up with work for others 
in the Intelligence Community. Similar work like that has gone 
on to take our sensor capability and nuclear capabilities and 
operationalize the capabilities.
    So all the national security labs are working in one form 
or another on both understanding chemical and biological 
weapons effects and the sensors that could be used to detect 
them, and some of that work comes out of that non-proliferation 
R&D, some of the work comes out of the work for others that is 
done at the specific request of another agency and funded by 
another agency, and some of it comes out of--the very 
beginnings--out of laboratory-directed research, and 
development funds.

                 NONPROLIFERATION ISSUES OUTSIDE RUSSIA

    Mr. Frelinghuysen. Lastly, Russia is obviously on our mind. 
We had a lot of discussion here and there on Russia--and not 
forgetting we have an axis of evil--what about the People's 
Republic of China, India, Pakistan, in terms of your agency, in 
terms of nonproliferation issues?
    General Gordon. Those are all scary places.
    Mr. Frelinghuysen. They are scary places. You haven't 
commented much on it, but I assume you have an ongoing 
involvement in each one of those and a lot of other countries.
    General Gordon. In India and Pakistan, the situation is 
such that we do not have an active program to work with their 
weapons. We don't really have an entree there, and we need to 
figure out how to work with both sides equally lest we 
precipitate a big problem. There have been overtures made to 
both countries. There are suggestions that we can and should do 
more. I concur with what I think you are saying: Is there work 
to be done in those places in terms of securing warheads and 
materials?
    We have been active in the states that surround much of the 
old Soviet states and have done work, good work in there. It is 
hard to get into India and Pakistan now. It is harder because 
they hold those programs so closely.
    Mr. Frelinghuysen. I assume my time is up but I would like 
to follow up with a few questions.
    Thank you, Mr. Chairman.

                    CHEMICAL AND BIOLOGICAL RESEARCH

    Mr. Edwards. Thank you, Mr. Chairman. Secretary Gordon, am 
I correct in understanding that NNSA has the primary 
responsibility of all Federal agencies to do research in the 
detection of chem, bio, or nuclear materials?
    General Gordon. We have the lead in the nuclear, but we are 
certainly not the only ones doing the nuclear. We do work in 
chemical and biological, and one of the chemical and biological 
programs that is managed out of NNSA attempts to coordinate 
some of the interagency work in the chem-bio programs.
    Mr. Edwards. How much do we appropriate directly for chem-
bio research for DOE approximately?
    Ambassador Brooks. Sixty-nine million dollars is the 
request.
    Mr. Edwards. Sixty-nine million. How does that compare to 
the 2002 budget for chem-bio research?
    Ambassador Brooks. The 2002 budget was $85 million. The 
difference is the completion of the work on the BASIS system 
that the Secretary was just describing.
    Mr. Edwards. Let me ask, as my previous question wanted to 
get more information, about nuclear terrorist efforts to get 
material from Russia, nuclear material from Russia. Would we 
need a separate briefing? What I would like to find out in 
chem-bio detection here, since this is a responsibility for 
your administration, where are we strong and where are there 
vulnerabilities? Could you help?
    General Gordon. Where we are strong with respect to our 
technology?
    Mr. Edwards. Our technology and research and where are our 
vulnerabilities? Leading us to the question of are there 
certain areas we need to do more research in if we reduce the 
budget from $85 million to $69 million? Maybe that is the 
perfect decision to have made, but I don't want to assume that, 
since we are talking about homeland defense here, and it is 
chemical and biological weapons of mass destruction.
    General Gordon. We would be delighted to come up and, in 
detail, bring up some of the equipment that is being developed 
in this area. And it ranges from this very sophisticated 
genetic work that gets down to find out not only is anthrax of 
the Ames strain but you can go the next step to find out what 
lab it might have been grown at. It does from that level up to 
fairly straightforward work and that has been done from work 
for others' programs on chemical-biological things. And I might 
add, and importantly, explosives detection; ways to find a 
sniffer, if you will, to see if there has been explosives. And 
much of the airport technology is a spin-off of work that has 
been done at Sandia and other locations from the natural work 
of having aging on nuclear weapons.
    Mr. Edwards. I would welcome an additional briefing on 
that, as well as the question earlier I had about incidents in 
Russia, and I will leave it to the discretion of the Chairman 
if he wants to do that as a formal committee briefing.
    General Gordon. We would like to bring up at this table, or 
one of the Chairman's choosing, some of the equipment and the 
people that work on it and really let you look at it and see 
where we are.

                   LIFE EXTENSION OF THE W80 WARHEAD

    Mr. Edwards. We will learn both the good things we are 
doing as well as the weaknesses and vulnerabilities. I realize 
when you are talking about vulnerabilities you're talking about 
highly classified information.
    If I could touch on one other thing in my remaining minute 
or two here. In the conference committee last year, several 
Senators said there was not a dime in our bill for spending on 
the life-extension of the W80 warhead. I was not quite sure 
whether that was accurate or not.
    My concern about spending too much in that arena is I think 
we are talking about extending, potentially for an additional 
30 years, a warhead that can under present conditions only be 
delivered by the B-52 bomber and the cruise missiles attached 
thereto. And my question at the time was, do we really want to 
have tens of millions of dollars spent so that we could have a 
nuclear warhead on a 30- or 40-year missile that is flying on a 
70-year-old B-52 bomber? Where are we in terms of spending on 
W80 and its life extension?
    General Gordon. The Administration so envisioned this 
system going ahead with that with respect to the W80. The Air 
Force to the best of my knowledge intends to keep the B-52 
around for a long time. It is showing its worth literally 
today. The NPR provided by the Secretary of Defense certainly 
envisages that warhead would be around for a period of time.
    With respect to the issue in the last year's budget, when 
we came in at $5.3 billion, we had elected to try to push it 
off a little bit and, in fact, did not have money at the $5.3 
billion level. When the Congress supported a higher level, it 
included that additional funding, so there was a communication 
issue there with respect to what was or was not included in 
money at the time, the $5.3 billion. We did not submit it.
    I think you asked something else and I forgot what it was.
    Mr. Edwards. That is okay, and thank you for that answer. 
My time is up. Thank you, Mr. Chairman.

                            NUCLEAR SECURITY

    Mr. Wamp. Thank you, Mr. Chairman. A comment and a 
question. The comment is, last Friday in Tennessee, in 
Nashville, Congressman Bob Clement hosted a field hearing on 
chem, bio, and nuclear terrorist threats in our State. And, of 
course, it was pointed out there that the President's budget 
request for homeland security is an increase from $17 billion 
to $36 billion in total, which is a very large increase, but it 
includes so many different agencies and so many different 
levels of support that you cannot look at one piece of it and 
get the full picture of what all has to be accomplished.
    Another point I want to make is I am asked all the time, 
because of the district I represent, about this issue of 
nuclear security. And Mr. Latham commented on the 
transportation of weapons materials across our highways.
    I can tell you unequivocally--and our committee needs to 
hear this--in my district where we have three nuclear reactors 
on line and a TVA system, commercial nuclear reactors, and the 
Y-12 Weapons Plant, that nuclear security is a distant third in 
terms of risk--to the citizens I represent--to biological and 
chemical threats. It is a distant third, and I say that because 
of the procedures and security that we have been engaged in for 
so many years in the area of nuclear preparedness and we have 
not been on chemical and biological.
    And there is a huge chemical plant in my district that is a 
totally free enterprise, Owen Chemical Company, and the 
materials that they transport on our highways are so much more 
dangerous in terms of casualties, loss of life and widespread 
damage than the nuclear materials that come and go from our 
nuclear plant. And that is a reality; one thing we talked with 
TEMA and FEMA about last week because we know that to be the 
case.
    So I think there is some balance or logic that we have to 
look at here as to what are the greatest threats, because I 
think Mr. Edwards is right on this issue, we need to focus more 
on chemical and biological threats. Nuclear is a great concern, 
should be a great concern, but I think we have to keep it all 
in perspective that these areas we haven't yet been into are so 
much more of a critical risk to us right now. It would be so 
easy to actually cause a chemical explosion in east Tennessee. 
It would be very difficult to cause a nuclear explosion in 
eastern Tennessee.
    I can just tell you that because we have asked a lot of 
questions. It would be difficult. It is not impossible, but it 
is not likely if a terrorist wanted to target my region.

                      RELATIONSHIP OF NNSA TO DOE

    The Chairman, General Gordon, talked about your unique 
position within NNSA, and I think it is worthwhile after a year 
to think about the Rumsfeld top-to-bottom review and kind of 
the reprioritization prior to 9-11 and then post-9-11 with 
respect to our military and what it has led to.
    But I also want your comments, very candidly, on the 
relationship that NNSA has with DOE thus far, and is there 
anything that you can tell us today that needs to be done that 
is not being done, or anything that we need to hear about?
    The NNSA is still new, and the unique thing I would point 
out is there is a lot of money being spent on national 
security, a lot more money going to be spent, and with the 
traditional competition between the different branches of 
service, I frankly am glad that NNSA is not in that mix because 
there is so much parochialism in the branches that you end up 
getting tossed about and there is actually some beauty in 
having some independence.
    Of course NNSA was created so that their weapons activities 
were independent somewhat of the Department of Energy itself, 
so that we could actually have a culture of security that 
combines the military culture with the NNSA as opposed to a 
more lax scientific mentality which Congressman Frelinghuysen 
was talking about.
    But how do you see NNSA and what are needs that we need to 
know as we prioritize funding in the coming years for NNSA that 
you might share with us today?
    General Gordon. With respect to how NNSA is doing within 
DOE, the answer is fairly well; not perfect, but fairly well. 
Certainly the Secretary has been extremely supportive of both 
the policies that we have done and of the NNSA as well. I 
cannot even think of an area where he has not been supportive 
of the policies and the ideas and the approaches that we wanted 
to take. We are very much in sync in those areas.
    With respect to the semiautonomy, or separately organized, 
I would say that that has continued to move ahead. There remain 
occasional bumps and struggles as we are changing the culture, 
not only within NNSA but of the culture within the Department 
of Energy. We led the way, Mr. Congressman, on changing how we 
do environmental safety and security oversight in the 
Department. We said we want one place that is going to do this 
oversight and it does not need to be done with 60 or 80 people 
coming into environmental or security issues.
    We made a proposal. We worked with the Office of 
Assessments and Mr. Podonsky to create a proposal for the 
Secretary. He has approved it. We had the first run at it in 
the Kansas City plant, and they are now doing it for me at 
Livermore. And that change in oversight was a little harder to 
make than the stroke of a pen because we are affecting how 
people did their work before, how they do it now, but it is 
hard sometimes but it is going in the right direction. And kind 
of across the board, we established our own contracting system 
and we are moving ahead in that area. But on a day-to-day 
basis, we sometimes still have to find and remember where the 
lines are on what NNSA is and what it means to be separately 
organized, but I am satisfied with the support we get from the 
Secretary.

                           EXCESS FACILITIES

    Mr. Wamp. You talked about modernization, upgrading the 
facilities throughout the weapons complex. Obviously the 
maintenance costs are very high associated with these old, 
dilapidated buildings that many of them were a product of the 
Manhattan Project.
    Just a rough percentage, how many of the buildings across 
the complex need to be moved out of the DP, Defense Programs, 
and into the environmental management arena so we can begin the 
process of modernization? What is the percentage of buildings 
that we don't need to use right now that we need to get out of 
DP?
    General Gordon. I don't know if I have a good number on 
that. I may have to consider that a bit more. There are a bunch 
of them at your site. I would have to give you a more 
considered answer.
    Mr. Wamp. It is a big problem that I am talking about, 
right?
    General Gordon. We just need to collapse the system. What 
is the complex of the future? I think it looks about like it 
does now in terms of where we are, because we have already done 
the cut in half of the system in the post-Cold War. I have got 
one plant that does uranium, one plant that does assembly, and 
one that does nonnuclear. The only thing I have got two of is 
two design labs, and I would argue that helps a lot with 
competition and clarity and making sure the issues are right up 
front. But within those individual footprints over the next 10 
or so years, there are huge efficiencies to be made and savings 
to be made in terms of getting out of the old facilities, 
dangerous facilities, falling down facilities and unused 
facilities, and collapsing the footprints down.
    At the location at Y-12 we need to bring--someone has told 
me, and I won't have the number exactly right, but a piece of 
uranium moves 6 or 7 miles as it works its way through the 
system. We need to collapse that down and have the protective 
area much smaller than it is, and reduce security costs.
    Just to pick another site, Los Alamos National Laboratory, 
same idea. We do nuclear operations at 12 or 13 places, all of 
which have to be guarded and all of which have to move material 
in between. Over a period of time, we are working on a 10-year 
site plan, we need to collapse that down; have one, maybe two 
areas that have this very high level of security.
    Mr. Wamp. I would ask you to personally stay and see all 
that through to completion. Thank you.

                 NAVAL REACTORS AND SPENT FUEL STORAGE

    Mr. Callahan. General, we have a total here of 92 questions 
that I am going to make you sit through, but we are going to 
submit all of these questions. Some of them you have already 
answered, and we would ask your prompt response to these in 
such time that we may have the answers before we begin the 
formulation of your budget.
    But let me just talk briefly about the naval reactors. How 
many of our ships are now nuclear powered? What percentage?
    General Gordon. Mr. Beckett can help with that.
    Mr. Beckett. It is 81 ships, Mr. Chairman, which is about 
40 percent of the Nation's major combatants.
    Mr. Callahan. Forty percent.
    Mr. Beckett. One hundred two reactors.
    Mr. Callahan. We have all these studies about ``what if,'' 
``what if'' studies. What if Yucca Mountain repository is not 
open on time? Number one, what are you doing with your spent 
fuel now? And number two, what happens if Yucca Mountain is not 
open in a timely fashion?
    Mr. Beckett. If I may, Mr. Chairman, a repository is very 
important to national security. We currently ship our spent 
fuel from the refuelings of ships and shipyards to the Idaho 
Naval Reactor's facility for examination and interim storage. 
And as you know, in our budget we have a dry storage initiative 
to put that in a safer interim storage methodology.
    But whether Yucca Mountain or some other facility, we need 
a place to permanently store our fuel since we are no longer 
reprocessing. It is a small amount of the Nation's total. We 
are less than about 1,000th of the spent fuel that is destined 
for the repository. It is a small amount, but if we cannot put 
it in a repository, ultimately we cannot take it out of the 
ships, and it will constipate the line.

                         TRANSPORTATION SAFETY

    Mr. Callahan. There has been a lot of discussion about the 
safety of transporting this material. How are you getting to 
Idaho now?
    Mr. Beckett. We have over a 40-year record of shipping 
spent fuel safely. We have shipped over 700 shipments of spent 
fuel from the various shipyards where it has been removed from 
the ships to Idaho, and in that over 40-year period have never 
had an incident. They are escorted with Navy sailors who are 
armed, and we have an extensive environmental impact statement 
that has been done which tries to consider all of the threats 
both from natural accidents as well as from terrorist acts, and 
we believe it is a safe process.
    Mr. Callahan. And is it done by rail or truck?
    Mr. Beckett. Yes, sir, all our shipments have been done by 
rail to date, and that is our intention for the future. They 
all are shipped in transportation casks which are licensed by 
both the DOE and the NRC.
    Mr. Callahan. Well, as you know, there is quite a 
discussion going on about Yucca Mountain, and one of the 
primary oppositions they have is our ability to safely 
transport the material to the facility through the State of 
Nevada or through other States. They are now going to 
surrounding States and saying, do you want this danger? But 
your operation ought to be a model of those proponents of Yucca 
Mountain. Your operation ought to be a glaring example of how 
safe it is, since you have been doing it for decades now and 
never have had one incident of problem. It would appear to me 
that we do have a safe mechanism for transporting these 
materials from one point in the United States to another 
because you probably have shipped them from every major port in 
America as far as our ship reactors are concerned.
    Mr. Beckett. That would be our position, Mr. Chairman. 
There are some other transportation issues which have all been 
studied by the Department of Energy and its environmental 
impact statement for the Yucca Mountain site.
    General Gordon. I think again, Mr. Chairman, you recall the 
Secretary made a statement yesterday that parallels what Mr. 
Beckett just said about the civil fuel transportation over 
these many years, and indeed some of that work was looked at 
afresh even by the Homeland Security Office again. So they felt 
confident in the same way, that it was important to move this 
material, the spent fuel from commercial reactors that is 
stored, that needs to be put in a less vulnerable position, and 
that it can be moved safely.
    Mr. Callahan. Well, I assume this, too, but there are a lot 
of people in Nevada who are going to be making statements to 
the contrary, I imagine, as we go through the next couple of 
years of determining whether or not we are going to open Yucca 
Mountain in a timely fashion.
    Mr. Frelinghuysen.

                    EMPLOYMENT OF NON-U.S. CITIZENS

    Mr. Frelinghuysen. Just one last question. Thank you, Mr. 
Chairman.
    The LA Times reports today that the Department of Defense 
has begun laying the groundwork to ban non-U.S. citizens from a 
wide range of computer projects. The article goes on, the 
Health and Human Services Department use software engineers 
from Pakistan, India, Ukraine, without performing background 
checks. The article goes on and says, similar lapses were found 
in the Department of Energy, Ag and State, as well as NASA and 
other Federal agencies.
    I know it is essential to our economy certainly to have 
private contractors. I just wonder if you had some concerns and 
what you have done specifically to sort of address these types 
of issues.
    General Gordon. The science nature of some of the non-NNSA 
laboratories has a very open system to the point of doing co-
research with both individuals from other countries and 
bringing them to this country to do work, and they have been on 
systems which touch upon at least the unclassified portions of 
the NNSA systems. We are changing the policies so that where 
those people who have systems administrator access to NNSA 
systems at the minimum levels are not foreign citizens, or at 
least not from sensitive countries.
    So we made a small step in that regard, but it always gets 
back to this issue of how do we get the legitimate scientific 
work out and how do we protect the physical structure and the 
electronics structure of our systems? And we work through that, 
and there is from my laboratories and from my plants where 
there is national security work going on in greatest quantity, 
there is no reason that systems administrators who are the 
people to have access to even the unclassified systems 
shouldn't be trusted people, and not from sensitive countries. 
And we have taken the steps within the NNSA portion to do that, 
and I believe that is actually being done by the Department as 
a whole.
    Mr. Frelinghuysen. Thank you.
    General Gordon. I might just add, if I could, for the 
Department as a whole, the Secretary has appointed a Chief 
Information Officer to work these issues for the Department as 
a whole, and who takes it very seriously, and that person sits 
in senior management meetings on a regular basis. It is a 
fairly new position and a serious issue taken by the Department 
as a whole.

                         CLOSURE OF ROCKY FLATS

    Mr. Callahan. Two or three more questions, one regarding 
transportation. Since Rocky Flats is supposed to close, I think 
in 2006, does the 2003 budget request any support of 
transportation needs of the nuclear material from the Rocky 
Flats site to the receiver site? And secondly, where would the 
receiver sites be in 2006?
    General Gordon. The NNSA provides, as a service to the 
Department, the movement of weapons-quality material, including 
those that would come out of Rocky Flats, and we have worked 
with the environmental management folks at DOE to develop a 
schedule to be able to move the material from Rocky Flats to 
the receiver site in a way that would----
    Mr. Callahan. What receiver site?
    General Gordon. The work that we are trying to do would be 
to go to where we build the MOX system, which is Savannah 
River, South Carolina.
    Mr. Callahan. Shipping them across country just as you are 
going to be shipping some cross-country to Yucca Mountain.
    General Gordon. Indeed. But that is where it would go, once 
the final agreements are made or final arrangements made with 
the State.

                        RUSSIAN NUCLEAR WEAPONS

    Mr. Callahan. Let us talk just briefly about the Russians. 
You said they were making more nuclear weapons. Are they 
designing new weapons as well, or are they just making what 
they already know how to do?
    General Gordon. Could I beg off again like I did before, 
and suggest that we offer the Intelligence Community to Come up 
and give that, because I am going to start down a road and then 
I am going to get so far and I am not going to know where I can 
go.

                       RUSSIAN NUCLEAR SUBMARINES

    Mr. Callahan. How about the building of subs? Do you think 
we ought to wait and talk about that? Are they building new 
submarines?
    General Gordon. I flat don't know.
    Mr. Callahan. I know the nuclear aspect of it, but how 
about the dismantling of the submarines that are beginning to 
rust out now and causing a tremendous environmental concern, 
any thought?
    Ambassador Brooks. My understanding, Mr. Chairman, that 
although there are submarines under construction in the Russian 
Federation, the progress is so slow it is hard to say whether 
you would actually say they are building things. They have had 
an alleged SS ballistic missile firing submarine under 
construction for quite a while, and work appears to be 
essentially stopped because of budgetary limitations.
    With regard to dismantlement, the charter belongs to the 
Department of Defense under a cooperative threat reduction 
program. The Russians have raised at various times whether or 
not we should assist them in the dismantlement of general 
purpose submarines. Thus far the Administration has not elected 
to do so.
    Our analysis in general suggests that, yes, it is a problem 
but it does not seem to be a legitimate concern of the United 
States. The environmental aspects do not appear to be 
catastrophic from a nonproliferation standpoint. Spent nuclear 
fuel inside reactors on submarines is much harder than other 
things. So thus far we have not elected to participate in that. 
There are conflicting views as to how much money the Russians 
have set aside for doing their own work, but money is in short 
supply in Russia. So if they could get us to help, I am sure 
they would like it, but thus far we have not been involved in 
that, and I detect no enthusiasm within the executive branch to 
become involved.
    Mr. Callahan. Are they in the water?
    Ambassador Brooks. Some of them are in the water. Some of 
them are in the water. Some of them are actually beached.
    Mr. Challahan. Beached, just sitting on a beach?
    Ambassador Brooks. Yes, sir. My colleague said naval 
reactors would not let anyone in their building who would even 
think of operating systems in the condition that my Russian 
colleagues do, but in terms of a true danger to U.S. national 
security, that warrants the expenditure of U.S. funds. We have 
not collectively seen this as rising anywhere near the line 
where there should be U.S. funding.
    Mr. Callahan. Let me ask you just a personal question, and 
that is with respect to the private industry, the shipping 
industry, the tourist industry, is there anything to your 
knowledge in the plans that would create a capability of any 
type of nuclear-powered privately-owned ships?
    General Gordon. I don't think we know anything about that.
    Ambassador Brooks. I don't.
    Mr. Callahan. No. I just wondered if it is so successful 
militarily, and I have been aboard these ships and seen how 
successful they are with respect to propelling the ship anyway 
and providing the energy for the ship. I am not talking about 
the nuclear.
    General Gordon. No one 10 years ago would have thought of 
commercial.
    Ambassador Brooks. There was a flurry of interest in that 
25 years ago, but I am not aware of any interest. As you know, 
the Russian Federation has used nuclear power for ice breakers, 
so for nonmilitary purposes, but I don't think that they have 
done any construction in that area in a number of years. It is 
not our responsibility, certainly from the Russian standpoint. 
I mean, you can always find some Russian who will write an 
article about something just like you can in this country, but 
I have never heard any suggestion that is an area the Russians 
are moving into, and I am not aware of any commercial interest 
in this country.
    Mr. Callahan. Well, in my next life I have already been 
offered a position, but it is violative of the rules of the 
ethics committee in the House that we talk about life after 
Congress. We cannot enter into a contract while we are still in 
Congress, but I will tell you that I have been offered a job, 
but they said first I had to go to welding school. So I don't 
imagine I will be in on the decision-making factor whether or 
not we have a private ship propelled by nuclear devices.
    Thank you, General, for your testimony here, and we will 
submit these questions to you, and once again, respectfully ask 
your people to respond in a timely fashion.
    General Gordon. Mr. Chairman, thank you very much. We will 
try to do that with great alacrity.
    Mr. Callahan. Thank you.
    [The prepared questions and answers for the record 
follows.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barrett, L.H.....................................................     1
Beckett, Thomas..................................................   175
Beckner, Dr. E.H.................................................   175
Brooks, Ambassador L.F...........................................   175
Gordon, Gen. J.A.................................................   175
Lane, A.R........................................................   175
Roberson, J.H....................................................     1


                               I N D E X

                              ----------                              

                   Office of Environmental Management

            Office of Civilian Radioactive Waste Management

                                                                   Page
Accelerated Cleanup Fund.......3, 31, 33-35, 42, 44-47, 51, 63, 129-143
Advanced Vitrification System (AVS).............................115-116
Alternative Waste Disposal Technologies..........................   157
Civilian Radioactive Waste Management.......18-31, 40, 93-114, 117-124,
 152-160
Cleanup Contracts............................................80-83, 128
Cleanup Reform...............................42, 44-47, 51, 63, 129-143
Compliance......................................................129-130
Contract Competition.............................................    83
Depleted Uranium Hexafluoride (DUF6).............................    84
Employee and Public Safety.......................................    35
Environmental Management Accomplishments.........................   125
Environmental Management Contracts...........................80-83, 128
Environmental Management Priorities..............................    39
Environmental Management Program..............2-17, 31-90, 92, 115-116,
 125, 127-151
Excess Facilities................................................    86
External Oversight of Yucca Mountain.............................   102
Facilities to be Transferred to the Environmental Management 
  Program........................................................    35
Hanford.........................................................148-151
High Level Waste.................................................    73
Idaho...................................................39, 43, 148-151
Interim Storage of Spent Fuel....................................    41
Kentucky......................................................... 84-85
License Application for Yucca Mountain...........................   159
Litigation.............................................100-101, 117-118
Low-Level Waste.............................................92, 148-151
Moab, Utah (Atlas site)....................................36-38, 78-79
Mound, Ohio, Site................................................80, 82
Nevada.................................18, 31, 40, 93-114, 117, 148-160
New Mexico...........................................38, 87-91, 148-151
New Mexico State Financial Assistance............................    91
New York......................................................54-76, 81
Nuclear Waste Fund..............................................59, 155
Nuclear Waste Fund Litigation..................................100, 118
Nuclear Waste Technical Review Board.............................    95
Nuclear Waste Technical Review Board Budget Request..............   161
Ohio.....................................................84-85, 483-486
Oversight of State and Counties.................................102-104
Paducah, Kentucky................................................ 84-85
Pit 9 at Idaho................................................... 39-40
Portsmouth Gaseous Diffusion Plant............................... 84-85
Program Direction................................................   124
Research and Development.........................................   144
Savannah River...................................................    43
Science and Technology..........................................77, 144
Security at Yucca Mountain.......................................   156
Senior Executive Service Reassignments...........................   147
Spent Fuel Storage...............................32-33, 41, 71, 119-120
Staffing Reduction...............................................   146
Statement--Oral--Acting Director Lake Barrett.................... 18-20
Statement--Oral--Assistant Secretary Jessie H. Roberson..........   2-4
Statement--Written--Acting Director Lake Barrett................. 21-30
Statement--Written--Assistant Secretary Jessie H. Roberson.......  5-17
Statutory Language Requirements for Accelerated Cleanup..........    35
Storage of Spent Nuclear Fuel....................................   119
Top-to-Bottom Review of Environmental Management.................48-50,
 52-53, 127, 145
Transportation Safety..................... 31, 40-41, 105-110, 121, 160
Transuranic Waste................................................    70
Uranium Facilities Maintenance and Remediation...................    84
Uranium Mill Tailings............................................   78
Washington State................................................148-151
Waste Isolation Plant Pilot (WIPP)...................38, 87-90, 148-151
West Valley Demonstration Project, New York...................54-76, 81
Yucca Mountain.................... 18, 31, 40, 93-114, 117-124, 152-160

                    Atomic Energy Defense Activities

                National Nuclear Security Administration

Accelerated Simulation and Computing.............................   289
Active/Inactive Stockpile..............................206-208, 227-229
Nuclear Weapons Stockpile..............................206-208, 227-229
Advanced Design and Production Technologies Campaign............255-256
Advanced Radiography Campaign...................................246-247
Advanced Simulation and Computing Campaign.......................   236
Advanced Test Reactor............................................   370
Advanced Warhead Concepts........................................   529
Aging Nuclear Workforce.........................................201-202
Atomic Museum....................................................   320
AVLIS............................................................   320
Biodetection...............................................211-212, 487
Budgeting and Accounting for Nuclear Weapons...............194, 505-507
Campaigns........................................................   261
Chemical and Biological Research................................213-214
Classification/Declassification of Information...................   393
Community Transition Commitments.................................   473
Compliance......................................................401-402
Competitive Research and Development.............................   343
Construction Projects...........................................293-306
Contractor Employment..................................312-313, 474-475
Contractor Reductions...........................................478-482
Contractor Travel...............................................309-311
Counterintelligence..............................................   400
Cyber Security..........................195-196, 211, 288, 391-392, 488
Defense Nuclear Facilities Safety Board Fiscal Year 2003 Budget 
  Request........................................................53-662
Deeply Buried Targets............................................   511
Dirty Bombs......................................................   321
Dynamic Materials Campaign.......................................   245
Electromagnetic Pulse...........................................196-197
Elimination of Weapons-Grade Plutonium Production in Russia......   324
Employment of Non-U.S. Citizens..................................   219
Energy Employees Compensation Initiative........................461-462
Energy Security Assurance.......................................397-399
Engineering Campaigns...........................................249-256
Enhanced Surety Campaign........................................250-251
Enhanced Survelliance Campaign..................................253-254
Environment, Safety and Health.........................437-454, 456-462
Excess Facilities................................................   216
Expended Core Facility Dry Cell.................................371-372
Facilities and Infrastructure..........................241-242, 270-287
Fiscal Year 2002 Supplemental....................................   530
Fissile Materials Disposition.....................335-336, 338-339, 342
Five Year Budget Plan............................................   223
Gas Turbine Reactor.............................................340-341
Global Security Threats..........................................   495
Graduates in Nuclear Science and Engineering.....................   368
Ground-Based Nuclear Test Monitoring............................203-204
Hard and Deeply Buried Targets..................................508-509
Health Studies..................................................414-436
High Explosives Manufacturing and Weapons Assembly/Disassembly 
  Readiness.....................................................259-260
Highly Enriched Uranium Agreement................................   337
Inactivation of Land-Based Reactor Plants........................   369
Independent Oversight and Performance Assurance.................401-413
Infrastructure Modernization...........................200-201, 241-242
Initiatives for the Prevention of Proliferation.................333-334
Inspector General................................................   492
International Material Protection and Cooperation................   328
International Nuclear Safety and Cooperation.....................   346
Kentucky........................................................483-486
Laboratory Directed Research and Development....................523-528
Laboratory Funding.........................................319, 325-326
Land-Based Prototype Reactors....................................   369
Life Extension of Weapons Systems................214, 224, 233, 518-520
Maintenance of Weapons Facilities................................   490
Material Protection, Control and Accountability.................199-200
Materials Readiness Campaign.....................................   263
Mixed Oxide Fuel Program.........................................   202
National Ignition Facility............................203, 290-291, 491
Naval Reactors.............................................217-218, 369
New Nuclear Weapons.............................................515-517
NNSA Missions....................................................   177
Nonnuclear Facilities............................................   455
Nonnuclear Readiness Campaign...................................261-262
Nonproliferation Programs........................................   322
Nonproliferation and Verification Research and Development......343-345
Nonproliferation Personnel......................................363-364
North Korea......................................................   347
Nuclear Cities Initiative..................................331-332, 496
Nuclear Material Theft..........................................197-198
Nuclear Nonproliferation............198-200, 212-213, 322-325, 494, 531
Nuclear Posture Review.....................................226, 513-517
Nuclear Reactor Threats..........................................   500
Nuclear Survivability Campaign..................................252-253
Nuclear Test Monitoring..........................................   203
Nuclear Weapons Stockpile............................204, 225, 227, 515
Office of Independent Oversight and Performance Assessment.......   401
Office of Management and Budget..................................   194
Office of Security.........................................373, 394-396
Ohio............................................................483-486
Paducah, Kentucky...............................................483-486
Pantex..........................................................505-507
Performance Measures............................................316-318
Pit Manufacturing and Certification Campaign...........237-238, 268-269
Portsmouth, Ohio................................................483-486
Primary Certification Campaign...................................   244
Program Funds Spent in Russia and the U.S........................   327
Project Baselines...............................................233-263
Readiness Campaigns.............................................257-263
Reduced Enrichment Research and Test Reactor....................365-367
Reimbursable Work...............................................314-315
Relationship of NNSA to DOE.....................................215-216
Reorganization of NNSA...........................................   177
Reportable Incidents............................................458-460
Reprogrammings...................................................   292
Retirement and Medical Costs.....................................   468
Robust Nuclear Earth Penetrator.................. 230-231, 235, 511-512
Rocky Flats.....................................................    220
Russian Importation of Spent Fuel...............................    348
Russian Nonproliferation Programs.....................197-200, 207-208,
 220-222, 232, 324-342, 348-362, 529
Russian Nuclear Materials Theft..................................   197
Russian Nuclear Submarines.....................................220, 362
Russian Nuclear Weapons...................................220, 232, 329
Russian Program Funding Spent at Laboratories....................   325
Safeguards and Security Funds....................................   374
Science Campaigns...............................................243-248
Secondary Certification and Nuclear Systems Margins Campaign....247-248
Section 3161 Implementation................................462, 469-472
Security Clearances.............................................386-390
Security.........................................215, 373-385, 489, 495
Severance Benefits and Associated Costs.........................463-467
Statement--Oral--Under Secretary John Gordon....................175-180
Statement--Written--Under Secretary John Gordon.................181-193
Stockpile Life Extension Program..........................224, 233, 518
Stockpile Readiness Campaign....................................258-259
Stockpile Reduction.............................................204-205
Stockpile Reliability............................................   493
Stockpile Replacement...........................................205-206
Strategic Transportation Asset...................................   308
Terrorist Threats...............................................497-504
Tonopah Test Range...............................................   307
Transportation Safety.............................209-210, 218-219, 308
Travel to Russia and the Newly Independent States...............349-361
Tritium................................................239-241, 263-267
Tritium Extraction Facility......................................   264
Underground Nuclear Test Readiness................208-209, 242, 518-519
Weapons System Budgeting.........................................   194
W80....................................................214-215, 515-517
W84 Inactive Status.............................................206-207
Weapons Systems Engineering Certification Campaign..............251-252
Work Force Transition and Economic Development Funding..........476-477

                Defense Nuclear Facilities Safety Board

Annual Report to Congress........................................   602
Budget Request, FY 2003..........................................   530

</pre></body></html>
